U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                INTERNATIONAL TRADE
                     ADMINISTRATION

     Although Progress Has Been Made, More
          Needs to be Done to Deliver On-line
             Export Information and Services




       Final Inspection Report No. IPE-13213/March 2001




                            PUBLIC
                            RELEASE



          Office of Inspections and Program Evaluations

U.S. Department of Commerce                                                                               Final Report IPE-13213

Office of Inspector General                                                                                          March 2001




EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i 


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 


OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2 


OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6 


          I.	       Recent Efforts Have Improved the Look, Feel, and 

                    User Friendliness of ITA Web Sites . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6 


          II. 	     Coordination Is Needed to Better Integrate Internet Efforts . . . . . . . . . . . . . . . . 10 


                    A. 	       Better coordination of ITA’s web efforts is needed . . . . . . . . . . . . . . . . . 10 


                    B.	        ITA needs to formalize its coordination of web activities 

                               with the Trade Promotion Coordinating Committee . . . . . . . . . . . . . . . . 15 


          III.	     Better Planning Is Essential to Provide More Products and Services On-line . . . 19 


                    A. 	       Activities that are not on-line should be put on-line, or ITA 

                               should fully explain why they are not on-line . . . . . . . . . . . . . . . . . . . . . 19 


                    B.	        Opportunities for new on-line products should be considered . . . . . . . . 21 


                    C. 	       Improvements should be made to existing on-line activities . . . . . . . . . . 21 


          IV. 	     Improved Mechanisms to Seek and Use Customer Feedback Are Needed . . . . . 24 


                    A. 	       Responsibility for managing customer feedback and maintaining

                               web site accuracy must be formally assigned . . . . . . . . . . . . . . . . . . . . . 24 


                    B.	        ITA’s efforts to determine customer requirements and satisfaction 

                               need to be more comprehensive . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 


          V. 	      Guidance Is Needed for Construction and Maintenance of ITA Web Sites . . . . 30 


          VI. 	     ITA Must Ensure Compliance with Established Standards and Laws . . . . . . . . . 34 


                    A. 	       ITA needs to ensure compliance with departmental standards . . . . . . . . 34 

U.S. Department of Commerce                                                                                Final Report IPE-13213

Office of Inspector General                                                                                           March 2001


                   B.        ITA needs to provide guidance and oversight to staff on federal legal

                             requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36 


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40 


APPENDIXES


                   A.        Recommended Web Sites and Best Practices . . . . . . . . . . . . . . . . . . . . . 42 


                   B.        Glossary of Terms and Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46 


                   C.        Trade Promotion Coordinating Committee Member Agencies . . . . . . . . 50 


                   D.        Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51 

U.S. Department of Commerce                                                                 Final Report IPE-13213

Office of Inspector General                                                                            March 2001


                                         EXECUTIVE SUMMARY

The number of people using the Internet is growing at an astounding rate. In 1993, fewer than
90,000 people worldwide were estimated to be using the Internet on a regular basis, and those
who did were primarily in academia or the government. By the summer of 2000, there were
more than 300 million frequent on-line users, and within five years, the number is expected to
pass the 1 billion mark.1 This exponential growth is accompanied by increasing expectations.
As the public conducts more commercial transactions on-line, such as personal finance and
banking, travel arrangements, and retail shopping, it also expects more on-line government-to
citizen information, transactions, and services.

Technology, and the Internet specifically, are changing how the government conducts its business
and how it communicates—both internally and externally. In recognition of this, the Department
of Commerce is planning to move from being a paper-based bureaucracy to a “Digital
Department,” whereby it will effectively obtain, process, produce, and provide information in the
medium that best meets the needs of its employees and customers. Early goals include providing
electronic access to all Departmental forms, developing a Commerce Intranet site, and organizing
the Commerce Internet home page so that customers can readily access information without
having to understand how the Department is organized. Next steps include developing web-
based internal administrative and business processes.

This review examined how well the Department of Commerce is using the Internet to provide
export promotion information and services to the public. The Department’s International Trade
Administration leads the federal government’s efforts to promote and increase non-agricultural
U.S. exports. ITA has three units that principally spearhead its trade promotion efforts: Market
Access and Compliance (MAC), the United States and Foreign Commercial Service (US&FCS),
and Trade Development (TD).2

A growing portion of an organization’s public face is often represented by its web site. In
exports, as in most areas of major government activity, Internet customers are demanding greater
transparency and clarity as well as increased information and services. ITA has recently
undertaken several efforts to organize its web presence in a way that helps users find information.
It has made considerable progress in improving access to its online information, but there are a
number of areas that still need to be addressed. During this review, we worked with officials


         1
          State of the Internet 2000, prepared by International Technology and Trade Associates, Inc., for the U.S.
Internet Council, September 1, 2000.
         2
         We did not include Import Administration, ITA’s fourth unit, in the review because its primary
responsibility is enforcing laws and agreements that help prevent unfairly traded imports from entering into the
United States.

                                                          i
U.S. Department of Commerce                                                 Final Report IPE-13213
Office of Inspector General                                                            March 2001

from ITA and the Department to help immediately address many of these weaknesses. We were
pleased with both the willingness and speed with which ITA made improvements in response to
the concerns brought to its attention by our office, as well as others. Given the rapidly paced
Internet environment, we anticipate that many other areas of concern that we identified will get
the attention required. A summary of our findings follows:

•	     Progress has been made to improve the look, feel, and user friendliness of ITA’s web
       sites. According to internal ITA documents, ITA’s web presence has 112 major points of
       entry. While many of ITA’s units and offices have good web sites, we identified four
       Internet efforts as particularly noteworthy. First, the Trade Information Center’s web site
       deserves recognition because it was one of the first customer resource and referral
       centers. The site develops database information or provides links to a number of federal
       export assistance programs and is known as the first place to go to for trade-related
       information and assistance. Because the TIC responds to a high volume of telephone
       calls and e-mail messages, it is able to modify its web site to meet customer needs.
       Second, the US&FCS web site is an example of a site that has undergone significant
       improvement. Initially, the 262 US&FCS domestic and foreign offices and programs
       created their own web sites, resulting in duplication, differences in content and format,
       and a lack of continuity and consistency from site to site. US&FCS streamlined and
       considerably improved its web site by standardizing the site format and placing one logo
       and banner on all US&FCS web pages.

       Finally, ITA has undertaken two commendable efforts to organize its on-line information
       to make it more user friendly. First, it reorganized the ITA home page so that users can
       readily access information by topic instead of by organization. Second, it developed a
       portal that will provide access to all federal agency export promotion efforts. Both ITA
       and Departmental managers recognized that the delivery of on-line export promotion
       information and services needed attention and appointed a task force to work on web
       development initiatives. (See page 6.)

•	     Increased coordination is needed to better integrate ITA’s web sites. Although
       coordination within ITA has improved due to the recent redesign of the home page, more
       needs to be done to fully integrate ITA’s web sites. Because each organization within
       ITA has developed its own home page, information, and services, duplication and
       inconsistencies can be found across many of the unit sites. Considerably more work and
       coordination are needed to better define and present a cohesive, integrated web presence.
       Not only will the public benefit from improved ease of use and clarity in getting
       information to help them increase exports, but ITA will also benefit from a reduction in
       staff time and effort spent on web site design and operations, particularly where
       duplication exists. Such coordination is much more difficult to accomplish at the
       interagency level, but it is also needed there. We recommend that ITA establish a

                                                ii
U.S. Department of Commerce                                                                 Final Report IPE-13213
Office of Inspector General                                                                            March 2001

         permanent governing board for Internet operations, both within ITA and among federal
         trade agencies. To ensure that web site improvements become an institutional goal, ITA
         needs to formalize its coordination internally and with other federal agencies, working
         primarily through the Trade Promotion Coordinating Committee. (See page 10.)

•	       Better planning is essential to provide more products and services on-line. Recent
         efforts to improve the public’s ability to interact electronically with the federal
         government have been advanced by the 1998 Government Paperwork Elimination Act.
         The act requires that, by October 2003, federal agencies provide the public, when
         practicable, the option of submitting, maintaining, and disclosing information
         electronically, instead of using paper. GPEA also requires federal agencies to use and
         accept electronic signatures. ITA’s on-line offerings are limited, and to date, the planning
         for placing activities on-line has not been comprehensive. We believe that ITA needs to
         revisit decisions to not put some activities on-line, as well as to expand its efforts to
         identify opportunities for new on-line products and improvements to existing on-line
         activities. Rather than just automate the current methods used for providing information
         and services, ITA’s planning should consist of a fundamental rethinking and redesign of
         its products and services that not only meet GPEA requirements, but also achieve
         improvements in cost, quality, timeliness, and service. (See page 19.)

•	       More customer feedback should be sought and used. We found that ITA has not
         adequately sought customer input regarding web site user needs and requirements.
         E-mail comments, complaints, and suggestions are solicited and managed haphazardly,
         and other types of feedback mechanisms have not been used. Based on the feedback we
         obtained, more could be done to improve web sites and better meet user needs. ITA
         should establish a formal process to (1) collect and manage customer e-mails, (2) use
         focus groups to pre-test changes and new pages, (3) obtain real-time feedback about
         content, and (4) use aggregate usage data to improve web sites. (See page 24.)

•	       Guidance is needed for the construction and maintenance of ITA’s web sites. ITA
         does not have any official standards in place to manage or control the production of its
         estimated 300 and more web publishers and content providers. Thus, the quality of each
         page varies significantly. We identified several problems with the web sites that suggests
         a need for standards and guidelines, such as pages that collect “cookies,”3 have outdated
         and undated information, are indefinitely “under construction,” and contain dead links.
         Even the best looking and most interesting site is likely to be abandoned if it is poorly
         developed (e.g., difficult to navigate) and maintained. ITA should establish standards to


         3
          A message that a web server causes to be placed on a user’s hard drive that can be read by the server (see
glossary, page 46).

                                                         iii
U.S. Department of Commerce                                                   Final Report IPE-13213
Office of Inspector General                                                              March 2001

       provide a consistent level of maintenance and quality across the ITA web sites. (See
       page 30.)

•	     Compliance with departmental standards is necessary. Within Commerce, a number
       of web site standards have been established. While most ITA web sites are in compliance
       with the standards, we did find some unit sites with pages that were not. Since there are
       few incentives for the staff in charge of the web sites to implement the standards, ITA
       must take responsibility for ensuring prompt compliance. (See page 34.)

•	     Guidance and oversight are needed to ensure compliance with the Paperwork
       Reduction Act of 1995 and Section 508 of the Rehabilitation Act. Many existing and
       new federal laws affect the Internet. The Paperwork Reduction Act seeks to minimize the
       public’s burden in responding to government requests for information by requiring that
       collections be approved by the Office of Management and Budget and that the public be
       provided with information about the collection. However, we found unapproved
       collections on ITA’s site, as well as approved collections where the required information
       was missing. We recommend that ITA prepare the necessary guidance and periodically
       monitor web sites to ensure that staff are aware of and following the law. Section 508 of
       the 1998 amendments to the Rehabilitation Act requires federal agencies to provide, to
       people with disabilities, equal access to agency electronic and information technologies,
       unless the agency can demonstrate an “undue burden.” Final accessibility standards were
       published in December 2000. ITA should take appropriate action to ensure compliance
       with Section 508 of the Rehabilitation Act once it becomes effective on June 21, 2001.
       (See page 36.)

During our review, we found a number of external web sites that could be considered best
practices because of a unique design or function. We mentioned some of these in our report.
Appendix A contains a listing of the organizations and web site addresses we found to be
particularly useful. In addition, to assist the reader with acronyms and Internet terms, a glossary
is provided in Appendix B. Our recommendations can be found on page 40.



In response to our draft report (see page 52), ITA agreed that the findings and recommendations
were valid, but expressed concern regarding the tone and timing of the review and report, given
that ITA is in the process of redesigning its web presence. We recognize that this review was
conducted while the redesign was in progress, but believe the timing made it possible for us to
identify, and ITA to address, problems and needed improvements during the process.

ITA agreed with all of the recommendations, and has already taken actions that will satisfy many
of the recommendations. We request that ITA provide an action plan addressing any outstanding

                                                 iv
U.S. Department of Commerce                                           Final Report IPE-13213
Office of Inspector General                                                      March 2001

issues, or requested documentation, as noted in the report.

To address ITA’s comments, we have made some minor changes to the report. A copy of ITA’s
full response is included as Appendix D to the report.




                                                 v
U.S. Department of Commerce                                                  Final Report IPE-13213

Office of Inspector General                                                             March 2001


                                       INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of
Inspector General conducted a program evaluation of the International Trade Administration’s
on-line delivery of products and services. We conducted our review from August 18, 2000 to
January 10, 2001. At the conclusion of our review, we discussed our observations and
recommendations with the Deputy Under Secretary for International Trade; Deputy Assistant
Secretary for Information Technology Services, Trade Development; and Director, Office of
Information Resource Management and Acting Chief Information Officer.

Program evaluations are special reviews the OIG undertakes to give agency managers useful
information about operations, including current and foreseeable problems. By highlighting
problems, the OIG hopes to help managers move quickly to address them and to avoid similar
problems in the future. The evaluations are also conducted to detect and prevent fraud, waste,
and abuse and to encourage effective, efficient, and economical operations. Program evaluations
may also highlight effective programs or operations, particularly if they may be useful or
adaptable for agency managers or program operations elsewhere. This evaluation was conducted
in accordance with the Quality Standards for Inspections issued by the President's Council on
Integrity and Efficiency.

                      OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this program evaluation was to determine the adequacy of ITA’s efforts to
provide on-line trade and business-related information and services to the public, to identify ways
to improve ITA’s on-line services, and to suggest relevant best practices used elsewhere in
government, or by private or non-government entities.

In conducting the program evaluation, we spoke with (1) web masters, program managers, and
other officials in ITA, (2) officials in the Small Business Administration, Department of Energy,
and Department of Agriculture, and (3) private sector and government users. We reviewed
relevant laws, including the Government Paperwork Elimination Act of 1998, the Paperwork
Reduction Act of 1995, and Section 508 of the Rehabilitation Act. We also examined
departmental standards, agency guidance, and other pertinent documents and assessed web sites
to determine whether such laws and standards and government polices were being followed.
Finally, we reviewed a number of non-ITA web sites for comparison purposes.




                                                1

U.S. Department of Commerce                                                                Final Report IPE-13213

Office of Inspector General                                                                           March 2001


                                               BACKGROUND

Within a 30-year period, the Internet grew from a cold war concept to the information
superhighway. It was not until 1982 that the loose collection of linked computers at the Defense
Department, part of its Advanced Research Project Association, was seen as an “internet.” The
World Wide Web came into being when the Defense Department’s network was
decommissioned in 1990.4 In 1993, an estimated 90,000 people worldwide, primarily in
academia and the government, regularly used the Internet. By 2000, the number of on-line
frequent users had increased to more than 300 million users, and that number is expected to pass
the 1 billion mark by 2005.5

Advances in the use of information technology (IT) and increases in the number of Internet users
continue to transform not only how individuals and businesses interact with one another, but also
how federal agencies provide information and services to and interact with the public. Electronic
government has been strongly endorsed by the President and executive branch agencies, as well
as the Congress to improve the delivery of government information and services. Many federal
offices have been using the Internet to collect and disseminate information and forms; buy and
pay for goods and services; and enable citizens to file claims, submit bids and proposals, order
records, pay taxes, and apply for licenses, grants, and benefits. On-line applications such as these
allow 24-hours-a-day, seven-days-a-week access to information and services.

The Department of Commerce is planning to move from being a paper-based bureaucracy to a
“Digital Department,” whereby it will effectively obtain, process, produce, and provide
information in the medium that best meets the needs of its employees and customers. Early goals
include providing electronic access to all Departmental forms, developing a Commerce Intranet
site, and organizing the Commerce Internet home page so that customers can readily access
information without having to understand how the Department is organized. Next steps include
developing web-based internal administrative and business processes.

The International Trade Administration leads the federal government’s efforts to encourage,
assist, and promote U.S. non-agricultural exports and help ensure that U.S. companies have equal
access to foreign markets. Both ITA and Department managers have pledged to fully utilize the
Internet to fulfill the ITA mission. The ITA Strategic Information Technology Plan states:



         4
          Although the Advanced Research Project Association network ceased to exist, users scarcely noticed
because the National Science Foundation system, which was built using the same protocol as the network, was used.
Life on the Internet: Net Timeline, Public Broadcasting System, http://www.pbs.org/internet/timeline.
         5
          State of the Internet 2000, prepared by International Technology and Trade Associates, Inc., for the U.S.
Internet Council, September 1, 2000.

                                                         2
U.S. Department of Commerce                                                               Final Report IPE-13213

Office of Inspector General                                                                          March 2001




  “ITA will lead federal agency efforts to increase U.S. exports and enforce U.S. trade laws
  by using modern technology to build an electronic global trade information environment
  that continually increases our ability to collaborate with our partners and stakeholders,
  and deliver products and services to our clients.”



Three out of four of ITA’s units deal primarily with exports.6 Market Access and Compliance
(MAC) helps U.S. businesses overcome barriers to trade and investment by providing
information that enables U.S. firms to benefit from recent trade agreements that the U.S. has
concluded. The MAC web site contains a database with information about the various trade
agreements as well as hotline information for U.S. businesses to report potential agreement
violations. Trade Development (TD) industry specialists work with industry associations and
firms to identify trade opportunities and obstacles by product and service, industry sector, and
market. These specialists support trade missions, trade fairs, and marketing seminars. The web
site offers a variety of information and is organized by programs and seven major industry
sectors: Basic Industries; Environmental Technologies; Information Technology; Service
Industries and Finance; Textiles, Apparel and Consumer Goods; Tourism; and Transportation
and Technology. The U.S. and Foreign Commercial Service (US&FCS) has a global network of
specialists that assist U.S. exporters in more than 220 cities located in the United States and 92
foreign countries. The US&FCS web site offers companies a range of export services and
information and the ability for the businesses to contact US&FCS directly by providing office
staff, location, and directions. Each of these ITA units use electronic government in varying
ways to help accomplish its mission.

As shown in Figure 1, ITA’s web presence consists of many sites in headquarters and the four
units—IA, MAC, TD, and US&FCS. For the purposes of this review we are defining a web site
as a group of pages under a unit or office’s responsibility.




        6
         The mission of the Import Administration, the fourth unit, is enforcing laws and agreements that help
prevent unfairly traded imports from entering the United States.

                                                        3
U.S. Department of Commerce                                                                                                           Final Report IPE-13213

Office of Inspector General                                                                                                                      March 2001



      Figure 1: ITA’s Web Presence




            !                                 !                                  !                                !
            !                                 !                                  !                                !
            !                                 !                                  !
                                                                                 !
                                                                                                                  !
            !                                 !                                  !
            !                                                                    !
            !                                 !                                                                   !
                                                                                 !
                                                                                 !                                !
            !                                 !
                                                                                 !                                !
            !
                                              !                                  !
            !                                                                                                     !
                                              !                                  !
            !                                                                                                     !
                        !                                                        !
                                                                                                                                  !
                        !                     !                                             !
                                                                                                                                  !
                                                                                            !



            *Not all points of entry identified by ITA internal documents are listed. Click on the unit site to find all sites.
            Source: Creating New ITA Web Presence to Develop More Effective Customer Relationships, June 2000 internal review




The OIG has addressed information technology and web site issues in a number of evaluations
and inspections of ITA’s programs and operations. In a broad review of ITA’s management
challenges in export promotion, better use of information technology to improve both its in
house operations and programs, and the delivery of its products and services to U.S. firms, were
identified as issues that needed to be addressed. During our inspections of US&FCS overseas
posts, we found a number of web sites that required attention. For example, the US&FCS
Germany web site was out of date and missing features to make it more useful and effective; the
US&FCS Brazil web site lacked key industry information and relevant links; and, US&FCS
Hong Kong was not using the Internet as effectively as it could have to promote its services and
coordinate with multipliers.7

On-line export information and services are not limited to ITA. Numerous other Commerce
agencies also play important roles in promoting trade. For example, the National Institute of

        7
          Management Improvements Needed to Better Prepare for the Export Challenges of the 21st Century, IPE
9904, March 1999; US&FCS Germany: While Generally Productive, Its Priorities, Resources, and Activities
Require Reassessment, IPE-9287, July 1997; US&FCS Brazil: Improvements Needed in Program Management and
Internal Controls, IPE-10916, September 1999; US&FCS Hong Kong is a Strong Operation With Minor
Management Issues, IPE-11330, January 2000.

                                                                                 4
U.S. Department of Commerce                                                  Final Report IPE-13213
Office of Inspector General                                                             March 2001

Standards and Technology helps U.S. firms become more competitive globally through its work
on domestic and foreign standards and measurements, and the Bureau of Export Administration
licenses the export of commodities that have both commercial and military uses. Other
Commerce agencies provide varying degrees of assistance and support in the area of international
export policy and promotion. It is no small challenge to present export information generated by
all these entities in a customer-friendly manner.

Commerce’s efforts to coordinate the regulation and promotion of exports across 19 federal
agencies is accomplished primarily through the Trade Promotion Coordinating Committee
(TPCC), which is chaired by the Secretary of Commerce.8 The involvement of all these federal
agencies reflects both the complexity and the importance of international trade in helping
maintain the overall health of the economy. The TPCC is the obvious group to oversee the
coordination of on-line federal trade and export promotion information.

As information technology and the Internet alter the way the government does business, the use
of this new medium to attain mission goals must take into account existing and new federal laws.
Two new laws, the 1998 Government Paperwork Elimination Act9 (GPEA) and Section 508 of
the Workforce Investment Act (usually referred to as the 1998 amendments to the Rehabilitation
Act),10 as well as the Paperwork Reduction Act,11 all impact web site development efforts.
GPEA requires that federal agencies provide as much on-line, as practicable, by 2003. Section
508 of the Rehabilitation Act requires federal agencies to ensure that the technology is accessible
to people with disabilities. Thus, government agencies must ensure that information on their web
sites is available in a format that is accessible to people with particular impairments, such as
providing on-line forms that can be used with assistive technology or an equivalent accessible
option. The Paperwork Reduction Act requires that information collection activities be approved
by the Office of Management and Budget (OMB) and that the public is provided with
information about the collection, regardless of the medium used.

It should be noted that the U.S. government is not necessarily the world leader in using the
Internet to provide services to the public. The percentage of interactive services offered on-line
to the public by the French, Australian, and Canadian governments is higher than that of the
United States. As businesses and the public ask more from the government, ITA, like the rest of
the U.S. government, must rise to the challenge and explore new ways to meet citizens’ needs.

       8
        Refer to Appendix C for a list of the agencies in the TPCC.

       9
        Public Law No. 105-277, Div C, tit. XVII.
       10
           Public Law No. 105-220.

       11
           Public Law No. 104-13.

                                                       5
U.S. Department of Commerce                                                            Final Report IPE-13213

Office of Inspector General                                                                       March 2001


                             OBSERVATIONS AND CONCLUSIONS

I.	      Recent Efforts Have Improved the Look, Feel,
         and User Friendliness of ITA Web Sites

ITA made the initial decision to let its offices place their own information on the Internet,
resulting in a proliferation of unit and office web sites with export information, rather than
centrally controlling and thereby restricting site information. Thus, ITA’s web presence consists
of, according to internal ITA documents, 112 separate points of entry (see page 3). This bottoms-
up approach resulted in some excellent sites produced by the various units containing useful
information, for those willing to devote considerable time searching for it. However, it also
resulted in an overall ITA web presence that lacked coherence, thereby necessitating many clicks
of the mouse by the customer to find relevant information. This practice generally discourages
customer use. It also resulted in undue duplication, the existence of over 100 unit and office sites
serving as points of entry, 16 search engines, and a confusing organization of information and
services. Each office organized its information differently, and finding information from the ITA
home page was difficult because it was organized by unit. An unintegrated web presence of this
sort cannot meet emerging customer expectations—which tend to be set by the private
sector—where finding information with three clicks of the mouse is about the norm.

Recognizing that increasing customer sophistication and expectations required better
organization, ITA has taken a number of positive steps in the last two years that have
substantially improved the coherence of its web offerings. Table 1 below summarizes four of
ITA’s web sites that provide improved access to export information.

Table 1: Characteristics of Four Customer-Oriented ITA Web Sites
                    TIC site             US&FCS site             ITA home page             Export Portal
               (tradeinfo.doc.gov)      (USAtrade.gov)             (trade.gov)              (export.gov)
 Scope of     TPCC-wide content       US&FCS-wide              DOC-wide content        TPCC-wide content
 content                              content
 Customer     Provides and links to   Provides an in-depth     Provides introductory   Provides links to
 Focus        export information      global resource for      and in-depth            introductory and in-
              and is the first stop   the (non-agricultural)   resources for the       depth resources for all
              for answers to trade-   export-ready exporter    non-agricultural        U.S. exporters
              related questions                                exporter and links to
                                                               export.gov.
 Time in      6 years                 Less than 2 years        Less than 6 months      Less than 3 months,
 operationa                                                                            not fully expanded
 Owner        TD/TIC                  US&FCS                   ITA portal task force    ITA portal task force
 a
  As of December 2000.



                                                      6

U.S. Department of Commerce                                                    Final Report IPE-13213
Office of Inspector General                                                               March 2001



The Trade Information Center’s (TIC’s) web site was one of the first sites to focus on customer
needs. The TIC, housed in TD, posts information from export assistance programs across the
government and is often considered the first stop for trade-related assistance. The TIC responds
to trade questions via a toll-free telephone number, e-mail, and fax, all of which are noted on the
web site. Most ITA units, and even one non-Commerce site,12 refer inquiries from new-to-export
companies to the TIC. According to one TIC official, in the past year the Center responded to
over 75,000 questions, not including e-mail requests for information. With this volume of
customer interface, the staff understands what trade information to post on its web site that will
best address U.S. business needs. The TIC emphasizes linking to information where possible,
rather than recreating it, although some “repackaging” is occasionally done.

Over the past three years, US&FCS has streamlined and considerably improved its web presence.
Initially, a number of the 262 US&FCS domestic and foreign offices created their own office
web site, resulting in duplication, differences in content and format, and a lack of continuity and
consistency from office site to office site. US&FCS consolidated its web presence by
centralizing web site development, standardizing site format, and placing one logo and banner on
all US&FCS web pages. The consistent format permits web site users to easily link to the
desired market research for a country or industry, services, trade events, and other resources.
General clarity and navigability, or ease of use, is considerably aided by the common format. In
addition, the logo and banner provide a common identity across the US&FCS web site, often
referred to on the Internet as “branding.” The US&FCS e-commerce task force is responsible for
improving, coordinating, and managing US&FCS’s web presence.

Despite the early accomplishments made by the TIC and US&FCS to improve their sites, until
recently, the ITA home page listed a confusing mix of individual office and program web sites.
To address this problem, in June 2000, ITA contracted with a consultant to examine ITA’s web
presence, and created an ITA portal task force, led by the special assistant for the Under
Secretary for International Trade. The major accomplishment of the task force has been to
rearrange the information by topics, rather than by organizational unit or program. The creation
of the portal task force and strong high-level support for improving ITA’s web presence were
motivating factors for the recent web site changes.

The new ITA home page is a major entry point and is intended to guide users easily through the
web site. The ITA home page takes pre-existing web site content and services and brings them
together by listing the links to the sites under headings, much like the yellow pages in the
telephone book lists businesses by subject. The home page also provides links to other export-
related web sites in the Department, such as the Economics and Statistics Administration’s


       12
         The Small Business Administration’s Tradenet export advisor portal.

                                                      7
U.S. Department of Commerce                                                 Final Report IPE-13213
Office of Inspector General                                                            March 2001

STAT-USA, the Bureau of Export Administration, and the Minority Business Development
Agency. For example, for those seeking information on exporting fish products and aquaculture,
a link is provided to the National Marine Fisheries Service, located in the Department’s National
Oceanic and Atmospheric Administration. The banner also provides uniformity, or “branding”
across ITA’s web presence.

The task force also created an export portal that more fully emphasized the entire Department’s
role in exporting. However, the scope of that portal project was expanded, at the request of
Departmental officials, to include federal-wide export information. The export portal will
provide a single government-wide point of entry, incorporating relevant information from the
TPCC agencies, and will carry a TPCC banner. For instance, the site will include financing
information from the Export-Import Bank, as well as regulatory information on agricultural
exports from the Foreign Agricultural Service. The export portal was launched in September
2000 and continues to undergo modifications.

Both the ITA home page and export portal are “intentions-based,” meaning that information is
organized around the user’s needs rather than around the agency’s organizational structure and
function. The new ITA home page provides entry to ITA unit and office sites by anticipating
questions the user might ask. The customer “intentions” were developed internally by ITA and
                                                                 are intended to be a user-
 Figure 2: ITA’s Home Page	                                      friendly way to find
                                                                 information. Both the home
                                                                 page and the portal are based
                                                                 on the five intentions, shown in
                                                                 the box, under “Get
                                                                 International Trade
                                                                 Assistance,” on the left hand
                                                                 side of the screen in Figure 2.
                                                                 The home page and portal are
                                                                 real steps forward in
                                                                 organizing the wealth of
                                                                 government information on
                                                                 exporting. ITA worked with
                                                                 the consultants to diagnose the
                                                                 existing web sites, reorganize
                                                                 ITA’s home page, create the
                                                                 export portal, and plan for
                                                                 future enhancements.

While the home page and portal are easy to comprehend, and improve site navigation, they
constitute a change only to the surface of ITA’s web site. Once users click a few times through

                                                8

U.S. Department of Commerce                                                   Final Report IPE-13213
Office of Inspector General                                                              March 2001

the intentions section of the site, they quickly discover that information continues to be scattered
across office-maintained pages. Using portals is analogous to bringing together a number of
separate libraries under one roof. One can now get to each library with greater ease, a
considerable improvement, but this is not the same as thoroughly integrating the collection into a
single library with the same indexing system. The new home page and export portal may draw
customers into the ITA or federal export web sites, but many will still be frustrated if the ITA
home page and export portal and the entire web site are not integrated more deeply and
comprehensively. Although the home page and portal are impressive improvements, they should
be seen as first steps, and part of a long-term cumulative renovation and integration of ITA’s web
presence.

The initial review of the ITA web sites and the creation of the new home page and portal
constituted the first phase of the project. The second phase, which began in October 2000, was
to determine a web governance structure, establish ITA-wide Internet standards and performance
expectations, and eliminate duplication. The task force is currently working with the consultants
to revise and edit customer intentions and complete the export portal. They have also been
discussing appropriate web-based tools and other methods to increase the functionality of ITA’s
home page and the export portal, such as creating common platforms and obtaining a powerful
search engine.

Although there has been progress, and ITA has taken steps to deliver on-line information and
services based on user—rather than organizational—needs, much more needs to be done. This is
recognized by ITA officials and staff who have served on the portal task force. To assist this
effort, we present the findings of our review in the following sections.




                                                 9

U.S. Department of Commerce                                                               Final Report IPE-13213
Office of Inspector General                                                                          March 2001

II.     Coordination Is Needed to Better Integrate Internet Efforts

Clearly users can be overwhelmed by the amount of information on the Internet. Ideally, the goal
of any web site is to enable users to find the information they want with the fewest clicks. Thus,
it becomes critical for organizations to assemble and categorize web site content in a way that
allows users to quickly access needed information. This can only be accomplished if all of the
organizations with content expertise work in a coordinated fashion. Both within ITA and
throughout the federal government, more needs to be done to ensure ongoing, long-term
coordination of Internet efforts to best meet users’ needs.

A.      Better coordination of ITA’s web efforts is needed

ITA’s home page was reorganized to provide easy access to all of ITA’s on-line information.
However, we found that, within ITA, information is duplicated and inconsistently offered,
leaving some sites rich with content and data, and others with gaps in coverage. We also found
the inconsistent use of terms across the web site to be very confusing. This is occurring because
ITA units are not working together to provide customers with the best, most complete
information available. All of these problems tend to leave users frustrated and confused.

Duplication exists across ITA’s web sites

We found a number of areas where information is duplicated across ITA web sites. For example,
at least five industry offices in TD, two offices in MAC, and the US&FCS trade opportunity
database13 provide on-line trade leads. Most of the sites include the leads from the US&FCS
database, as well as a mix of other public and private sector leads. The duplication of trade leads
wastes government resources and is confusing for users, who may have to visit five or more
different office web sites to obtain all available leads. The following table illustrates other
examples of duplication on ITA’s web sites.




        13
           The trade opportunity database is composed of leads gathered by the overseas staff during conversations
with local buyers, at trade shows, and through local market research.

                                                        10
U.S. Department of Commerce                                                                            Final Report IPE-13213

Office of Inspector General                                                                                       March 2001


Table 2: Duplication of Information on Web Sites
                                                      Number of web sites found with informationa in:
 Export Information/Products                         TIC          MAC           US&FCS            TD                     Total
                                                                                 ����          ����                        20
 Trade Missions & Events                              �           ���             ���          �����
 Country Market Research                                                                       ����                         13
 (e.g., China)                                        �           ��              ��           ����
 Country Commercial Guides                                       ����              �            ���                             8
 Industry Market Research (e.g.,
 Information Technology)                                               ��                 ��             ����                   8
 Trade Leads                                                           ��                  �             ����                   7
 Trade Agreements                                                      ��b                               �����                  7
 Tax & Tariff                                         �                ��                                 ��                    5
 Policy (e.g., NAFTA)                                 �                ��                                 ��                    5
 a
 b   The chart includes posted information and does not include links to information.
     The chart includes posted agreements and does not include sites devoted specifically to a single agreement, such as the

     home page for the North American Free Trade Agreement or the Caribbean Basin Initiative.



Each office site, represented by a check mark, contains information about the topic listed on the
left. We included only the sites where the office posts its own material, and excluded offices that
merely provide links to the information. This duplication has occurred because each office takes
responsibility for placing content on the site with little or no external coordination. To avoid
wasting resources and confusing its customers, ITA should consolidate similar information into a
single database.

For example, within US&FCS, all trade events are now in one searchable database. Previously,
the official database maintained by the events office captured, by one account, only 25 percent of
US&FCS’s events. The new database allows all domestic and overseas offices to list local
events, and includes both certified and uncertified events. Of course, not every office is utilizing
the new data base and a number of office sites, such as the Multi-State Catalog Exhibitions site
and Showcase Europe, continue to maintain separate calendars. The next step should be to
coordinate all of ITA’s trade events and missions into a single database. For those areas where,
unlike trade events, information cannot be reasonably consolidated or is already in a database,
such as the Trade Compliance Center’s trade agreements database, better use of linking to that
information should be utilized.

Web site information needs to be consistent, comprehensive, and better linked

We found that many of the unit and office web sites, accessed via the ITA home page and export
portal, vary in the types of information offered. For example, within TD, most of the industry
offices offer a mix of different information in different formats. Rather than determine common
information needs across all industries, each office designs and decides what information to post

                                                                11

U.S. Department of Commerce                                                    Final Report IPE-13213
Office of Inspector General                                                               March 2001

for its industry sector. As a consequence, most of the industries differ visually, in the type of
information offered, and in the content of the materials.

Figure 3: Information Listed on Three Industry	             Figure 3 displays the information a
Sites	                                                      user finds on the home pages of three
                                                            industry sites: Environmental
                                                            Technologies, Textiles and Apparel,
                                                            and Energy. Both the information
                                                            offered and the look of the sites vary
                                                            significantly. This makes it difficult
                                                            for users to compile and find
                                                            multisector information across industry
                                                            pages. For example, although each site
                                                            provides trade statistics—referred to as
                                                            trade data on the Textile site—the
                                                            information provided differs. The
                                                            Environmental Technologies site links
                                                            the user to the Office of Trade and
                                                            Economic Analysis, the Energy site
                                                            provides the user with a chart for U.S.
                                                            energy imports (not exports) for the
                                                            years 1994-99, and the Textiles site
                                                            contains a database that allows users to
                                                            access import and export reports in a
                                                            variety of ways. In addition, while
some sites are rich with information, others are not.

While there may be justification to cover some industries more extensively than others, we
believe there should be a minimum baseline of information across all industries and a similar
format for finding and retrieving information. ITA should determine what industry information a
user is most likely to need from the Internet—such as trade statistics, a list of “key markets” per
industry, and links to the relevant trade associations—and ensure that all industries provide that
information in a consistent format.

The MAC site is a mix of programs (e.g., internship programs for Northern Ireland and the
former Soviet Union, export promotion programs for the newly independent states and central
and eastern Europe), trade polices (e.g., North American Free Trade Agreement (NAFTA),
U.S.-Caribbean Basin Trade Partnership Act of 2000), and country information (e.g., Japan,
China). For some of these sites, the program might be more useful and accessible if the
information was associated with country or regional information. For example, an exporter
seeking information on Ireland may find the internship program useful, or someone seeking

                                                 12

U.S. Department of Commerce                                                    Final Report IPE-13213
Office of Inspector General                                                               March 2001

information on trade with Mexico might find the NAFTA information useful. Incorporating
information by region, country, or industry of interest would help users find information more
readily. At a minimum, better use of links should be incorporated across ITA web sites to assist
the user in finding all relevant programs and information.

Unlike MAC and TD, US&FCS began to internally coordinate and consolidate its web site
information, beginning over two years ago. This effort included a moratorium on new field
office web sites during fiscal year 2000. The consolidation effort has resulted in a site that
consistently provides information about the staff, location and directions, and local events for all
international and domestic offices. Field offices have the ability to post unique regional
information and events as well. US&FCS created an e-commerce task force, with a dedicated
staff, to make the web site changes. The task force has also undertaken a number of initiatives,
including the consolidation of event information and pilot-testing new initiatives, such as an e-
mail subscription service for market information. The use of a dedicated staff to coordinate and
integrate services and information products has been successful for US&FCS and should be
considered elsewhere in ITA. Given the existence and experience of the current task force, a
small increase in funding could enable it to take on projects with a broader ITA-wide scope.

Web site terminology is inconsistent

Different offices use different terminology on ITA’s web sites. This is very confusing. For
example, ITA web sites contains multiple, differing industry lists. Specifically, on the US&FCS
site, a user encounters 114 industry products and services to choose from, while on the TD home
page, 20 broad industry categories are listed. MAC lists 16 industries on the Business
Information Service for the Newly Independent States site and 15 on the Central and Eastern
Europe Business Information Center site. Among other offices, TD’s global infrastructure
database lists projects in 21 unique categories, while MAC’s Trade Compliance Center lists 58
industries. Yet none of the industry lists are a subset of another list, and users do not know
whether industry categories are equivalent across ITA web sites. While some offices may have
to provide options that are not universal to all of ITA—such as the Trade Compliance Center
industry list that includes options for agricultural agreements—until common terms are used
across ITA sites, users must spend considerable time and effort in assessing the choices every
time a new office site is visited. For example, the construction industry is listed under
“construction and real estate” on the BISNIS site, “forest products” on the TD site, and several
options on the US&FCS site, including “building products,” “construction equipment,” and
“housing products.” In addition, it can be difficult to associate some of the industries listed on
one site to the industry choices on another site. For instance, there are no choices on the
US&FCS industry list that correspond to the TD Environmental Technologies industry sector.

For users, working with a common set of terms across ITA sites assists with navigating and
finding information. For ITA, establishing a universal set of terms to describe the information on

                                                 13

U.S. Department of Commerce                                                                  Final Report IPE-13213
Office of Inspector General                                                                             March 2001

the Internet will ultimately assist with managing content. As information on web sites increases
in volume, complexity, and timeliness, and the number of contributors multiplies, the importance
of managing content becomes increasingly critical. The first step to manage content is to identify
how information will be classified and categorized. According to the Knowledge Management
Working Group of the Federal Chief Information Officers’ Council, creating a thesaurus and
enforcing its use helps users to better find information and organizations to better manage it.14
By categorizing and managing content, users of ITA web sites would be able to build a
personalized page based on the data categories and perform more detailed searches. Moreover,
ITA could design an automated system to archive information beyond a designated date to keep
the site from becoming crowded with extraneous or outdated material. At a minimum, a single
set of data elements should be defined and used by all components of ITA—if not all federal
agencies—involved in export promotion and international trade.

A web governance board could facilitate coordination within ITA

ITA has a history of poor coordination, as identified by the OIG in the past15 and reaffirmed both
by this review and the consulting firm that ITA hired to assist with its web site development
efforts. While ITA coordination has improved for certain aspects of the portal project to date,
ITA faces a number of challenges, including better coordination of office sites within
organizations, such as the industry sectors in TD and across all of ITA.16 This coordination is
going to require the expertise of both program specialists and information resource experts. The
collaboration between program and technical experts is necessary to achieve a customer-focused
web presence. We, like the consulting firm, recommend that a permanent web governance board
be created to oversee ITA’s e-government initiatives and Internet efforts.

A number of models for governance boards exist. For example, the Energy Web Council of the
Department of Energy was created by the Chief Information Officer’s (CIO) office to “further
agency-wide communication, coordination, and assessment of industry and public trends


         14
          Management Knowledge @ Work: An Overview of Knowledge Management (draft), Knowledge
Management Working Group of the Federal Chief Information Officers’ Council, October 4, 2000. The CIO
Council serves as the principal interagency forum for improving practices in the design, modernization, use, sharing,
and performance of federal government agency information resources. The Knowledge Management Working
Group brings together guidance on the content, process, and technology needed to ensure that the federal
government makes full use of its collective knowledge, experience, and abilities.
         15
           Management Improvements Needed to Better Prepare for the Export Challenges of the 21st Century,
IPE-9904, March 1999. Assessment of Commerce's Efforts in Helping U.S. Firms Meet the Export Challenges of
the 1990s, IPE-4523, March 1993.
         16
            Although the Import Administration is not part of this review, it should be included in any cross-cutting
efforts to improve ITA web sites.

                                                          14
U.S. Department of Commerce                                                   Final Report IPE-13213
Office of Inspector General                                                              March 2001

regarding use of the web as an information resource.”17 The Council, which is co-chaired by
Energy’s CIO and the Director of Consumer Information, consists of 12 program experts
responsible for content issues, 6 operations experts from the CIO office and Consumer Affairs
office, and 11 contributing members from other, mostly administrative, areas. In addition to the
Council, there are two standing committees, one on e-commerce and advanced applications and
another on public feedback/audience focus. The Council meets monthly and submits a yearly
report to the Energy Deputy Secretary on progress made and lessons learned. One official from
Energy stated this model has worked well for coordinating its web efforts. Regardless of the
model chosen, ITA should create a web governance board to help eliminate internal duplication
and ensure that web development efforts organize information around customer requirements.



In response to our draft report, ITA stated that the creation of a Web Governance Council was
proposed in August of 2000. However, due to the delay in filling several key leadership
positions, seven months have elapsed and the Council has yet to be created. Once the Council is
officially established, we request that ITA provide us with the Council charter and an explanation
of how the problems we encountered will be addressed.

ITA did not fully address whether, in addition to the US&FCS task force, a second application
group would be created or whether the existing task force would be moved under the CIO’s
office, or left in US&FCS and expanded. The response only stated that ITA is in the process of
forming a CIO’s office, which along with the ITA Web Governance Council, will take over the
function of coordinating and consolidating ITA sites. ITA’s action plan should address this
issue.

B. 	   ITA needs to formalize its coordination of web activities with the Trade Promotion
       Coordinating Committee

ITA is currently soliciting input from an ad hoc working group of TPCC representatives to help
ITA expand the government-wide version of the export portal. This is the second government-
wide export portal built. To ensure that there is only one official export portal, ITA should
obtain the TPCC’s commitment to a single government-wide portal and formalize the TPCC
working group into a board to govern web site development and maintenance.

In 1997, the Small Business Administration (SBA) developed a cross-agency web site for




       17
         Web Council charter, http://www.energy.gov/webcouncil/charter.htm.

                                                    15
U.S. Department of Commerce                                                            Final Report IPE-13213
Office of Inspector General                                                                       March 2001

international trade,18 Tradenet, as part of a governmentwide initiative.19 Over $400,000 in
interagency funds were used to create the Tradenet site, and input was widely sought from
Commerce and other export promotion federal agencies and groups, such as the International
Trade Data Network. Feedback was also gathered from businesses and other users in a number
of focus group sessions. It was from the focus groups that SBA learned, for example, that
customers prefer to conduct local resource searches using postal ZIP codes. In addition, many of
the ideas for the portal were modeled after the Foreign Agricultural Service web site.

The Tradenet portal has considerable functionality, including the ability to search for contacts by
ZIP code, the use of technology to pull trade leads from multiple sites, and a customizable home
page that allows users to organize the site according to their interests and return to the site for
quick updates. This last feature is especially important for small businesses which do not have
the staff to constantly track information.

Despite these features, a good design, extensive links, and testing, the Tradenet portal has been
hampered by a number of problems. Neither the National Partnership nor SBA is providing
sufficient support for ongoing maintenance, updating, and development of the site. Furthermore,
there has never been sufficient buy-in from ITA because Tradenet has been viewed as an SBA
site, according to officials from both agencies. These factors have contributed to the site’s
relative lack of visibility. Given these problems, the SBA project manager has suggested that
Commerce take over the Tradenet portal. However, ITA has resisted taking over Tradenet,
preferring to build its own. At present, both the export and the Tradenet portals remain on-line,
with each portal linking to the other.

Despite the fact that the export portal currently lacks a search engine and much of the
functionality of the Tradenet site, ITA intends for the export portal to become the primary export
promotion web site in the federal government. According to ITA officials, Commerce ownership
makes sense since the Department provides 80 percent of all export information, currently
answers all Tradenet-generated questions via the TIC, and chairs the TPCC. The export portal
also has the backing of the President’s Management Council, which has championed other major




        18
          This site can be found on the Internet at www.tradenet.gov.
        19
            Tradenet was sponsored by the National Partnership for Reinventing Government’s Access America
initiative. The National Partnership for Reinventing Government, formerly the National Performance Review, was
an interagency task force designed to help the government become more efficient, with an emphasis on putting
customers first. The goal of the Access America initiative was to reengineer processes through information
technology.

                                                       16
U.S. Department of Commerce                                                                 Final Report IPE-13213
Office of Inspector General                                                                            March 2001

web initiatives, such as the U.S. government’s one-stop portal, FirstGov.20 Nonetheless, ITA’s
creation of the export portal represents a duplication of resources and effort that could have been
avoided had there been better coordination within the TPCC from the outset.

While there has been recent cooperation creating the export portal, there needs to be buy-in and
commitment from all the trade-related agencies to develop the site further, remove duplication,
adopt common standards, and promote technical, visual, and content coherence of web sites
across agencies. To fully exploit the potential for economy and efficiency inherent in
information technology and the Internet, TPCC agencies should move to integrate services and
provide “one-stop shopping” for companies and the public. In the future, citizens should be able
to log on to one government web site and easily find the export or trade services for which they
are looking. Ideally, export and trade agencies should be able to agree on a common set of
information to be submitted once by companies. For instance, a business needing loans or
financial credit guarantees from the Export-Import Bank, regulatory information from the
Foreign Agricultural Service, or trade leads from ITA would fill out one web-based form. The
information would be forwarded to all necessary federal—and even state and local—trade
agencies, saving time, money, and frustration at all levels. While the Internet makes such
efficiencies feasible, many definitions, rules, and business processes would have to be brought
into far better alignment across agencies to make such integrated services workable.21

To ensure that the TPCC export portal efforts are able to exist on a long-term basis, a more
formal committee structure than the ad hoc working group of the TPCC is needed. Such issues
as uniformity, maintenance, and standards will require resolution. In addition, continuing TPCC
leadership and coordination are needed to achieve the efficiencies associated with cross-agency
integrated delivery of services. ITA should take the lead in formalizing the TPCC web site
committee and obtaining commitment of resources from all relevant agencies.



ITA’s response states that it has already obtained the commitment of the TPCC on the working
level to a single, government-wide export portal. According to ITA, an informal working group
is integrating the TPCC agency programs into the export.gov web site and that once that task is


         20
            FirstGov provides links to all online U.S. Federal Government resources. The web site address for this
site, as well as others mentioned in this report, can be found in Appendix A, page 42.
         21
           Robert Atkinson of the Progressive Policy Institute estimates that more than 100 federal organizations
make the rules and control the permits required for importing and exporting and have, among them, “more than
2,000 different definitions for a set of about 130 data elements that reflect the basic trade data requirements of
federal agencies." See William Mathews, “Setting A Course for E-government,” Federal Computer Week,
December 12, 2000, http//www.fcw.com/fcw/articles/2000/1211/cov-egov.

                                                         17
U.S. Department of Commerce                                                Final Report IPE-13213
Office of Inspector General                                                           March 2001

completed, a formal TPCC Export Portal Working Group will be established. ITA also stated
that the SBA export portal and the ITA export portal will be consolidated into a single export
portal. This was not the case at the time of our review, and we applaud both SBA and ITA for
working together to create one government-wide export portal. ITA also stated that the lack of
buy-in for Tradenet had to do with the poor maintenance of the site and lack of visibility. ITA
also denies that it resisted the concept of taking over Tradenet. Whatever the reason for ITA’s
lack of buy-in during our review, there was never any indication that taking over and improving
the Tradenet portal was considered. A June 9, 2000 proposal (Creating a New ITA Web
Presence to Develop More Effective Customer Relationships) clearly indicates that the web
project objective was to “improve ITA’s web presence to the customer,” “create an integrated
‘point-of entry’/ITA-portal for exporters,” and “link with DOC and TPCC web efforts that
strengthens ITA’s role in export assistance.” [bold and italics added] The outcomes were to
“develop an ITA Homepage/Exporter Portal” and “make recommendations of long-term web
capabilities.” Moreover, on numerous occasions the OIG was told by ITA officials that ITA was
tasked by Departmental management to develop its own export portal.




                                              18

U.S. Department of Commerce                                                   Final Report IPE-13213
Office of Inspector General                                                              March 2001

III. 	   Better Planning Is Essential to Provide More Products and Services On-line

ITA is already providing a considerable number of on-line products and services. However,
many more still need to be made available to the customer on-line. In addition, a few of ITA’s
on-line products and services need further refinement or broader application designed to utilize
the latest advances in technology. ITA’s planning for on-line products and services has not been
thorough, to date, causing some activities to be overlooked and not offered on-line. As a result,
users are unable to interact with ITA in the most efficient and timely manner, and they may lose
potential business opportunities. As ITA begins to place more of its products and services on
line, old, perhaps inefficient paper processes from legacy systems should not automatically be
converted into web-based applications. Rather, new methods, that incorporate technological
advances, should be explored in order to more efficiently and effectively provide ITA products
and services.

In the near future, federal agencies will provide more products and services on-line. In doing so,
agencies must also take into account other laws and regulations that affect such Internet-related
issues as information collection restrictions, accessibility issues, and privacy concerns.
Nonetheless, the 1998 Government Paperwork Elimination Act requires that five years after the
bill is signed, federal agencies, when practicable, provide (1) “the option of electronic
maintenance, submission, or disclosure of information....as a substitute for paper,” and (2) “the
use and acceptance of electronic signatures.” Under GPEA, OMB is responsible for ensuring
that federal agencies meet the October 21, 2003, implementation deadline. All federal agencies
were required to submit GPEA implementation plans to OMB by October 31, 2000. These plans
were required to include an assessment of the practicability of submitting information and
maintaining records electronically and of using signature technologies.

A. 	     Activities that are not on-line should be put on-line, or ITA should fully explain why
         they are not on-line

Providing a product or service often requires collecting information from the public, a task that
has traditionally been handled through paper applications, questionnaires, and other types of
forms. Although ITA has more than 30 official information collection activities, many of these
activities are not offered on-line to customers. For example, several forms can be downloaded
and printed, but cannot be filled out by the customer, or submitted to ITA on-line. These include
the application for the market development cooperator program, the application for an internship
at the advocacy center, the form to order publications from TD’s Office of Textiles and Apparel,
and the pre-gold key service questionnaire. During its planning activities, ITA should consider
how programs can take greater advantage of the Internet and information technology, and enable
the user to provide and submit information on-line. In many instances, this will require a critical
rethinking and redesign of the current processes.


                                                19

U.S. Department of Commerce                                                               Final Report IPE-13213
Office of Inspector General                                                                          March 2001

Another part of the on-line planning process is how information will be provided to the public.
However, ITA’s planning effort does not consider information dissemination. In fact, ITA’s
GPEA Implementation Plan includes only information collection activities, and not information
dissemination activities, as required by OMB. For example, the plan did not include the new on
line customized state export information, a highly graphical and user-friendly data base that
allows users to view state and global exporting patterns. And there is no mention on the
US&FCS web site of the services and short and long-term rental space available to U.S. business
at the U.S. Commercial Centers located in Brazil, South Africa, China, and Indonesia or the U.S.
Trade Center in Mexico. While planning for on-line products and services, ITA needs to
consider both information collected and disseminated, and how to exchange information or
communicate with its customers in the most efficient and effective manner.

In addition, ITA rarely conducts on-line payment transactions. We found only found two offices
that accept credit card payments on-line, yet ITA collects payments for a number of activities,
including trade missions and events and the numerous export services offered by US&FCS. ITA
needs to consider offering more interactive products and services, including on-line payments.

Finally, there may be circumstances where it might not be appropriate for some products and
services to be on-line. OMB requires that agencies include information collections, interagency
reporting, information dissemination, and other agency identified transactions in the GPEA
implementation plan. For activities that are not going to be automated by October 2003, OMB
requires that the agencies fully explain why in the plan. We found that ITA’s planning activities,
such as the GPEA plan, did not address products and services that are not going to be on-line. In
the event that some activities will not be placed on-line, ITA needs to articulate the reasons why
in its plan.

Rather than just automate the current methods used for providing information and services, ITA
should undertake a fundamental rethinking and redesign of its products and services that not only
helps it meet the 2003 deadline, but also, hopefully, achieves improvements in cost, quality,
timeliness, and service. This may result in eliminating old processes and systems and developing
new ways to obtain and disseminate information or provide services. The recent US&FCS
initiative to provide the participation agreement22 electronically is an example where the paper
form was not only automated, but the entire purpose for collecting the information was reviewed.
Specifically, the information collected with the automated agreement is linked with the on-line
collections function, allowing collections and outstanding payments to be easily monitored.
Thus, when a business agrees to participate in a trade promotion activity, the company

        22
           The Participation Agreement is an OMB-approved form that is the vehicle by which individual U.S.
firms agree to participate in ITA’s trade promotion program. The agreement identifies the products and/or services
the business intends to sell or promote and records the required financial contribution. It also represents a
contractual agreement between the company and the U.S. Department of Commerce.

                                                        20
U.S. Department of Commerce                                                                    Final Report IPE-13213
Office of Inspector General                                                                               March 2001

information and payment due are tracked for collection purposes.23 This is an excellent on-line
activity that will save ITA and its customers time.

B.       Opportunities for new on-line products should be considered

ITA’s implementation plan only addresses placing existing information collections on-line and
does not identify any new on-line products and services. ITA needs to plan for and expand the
usefulness of its web presence by providing new on-line products and services to its customers.

An example of an on-line product not currently offered by ITA is one available to Australian
exporters from the Australian Trade Commission (Austrade). This product, called a “Partnership
Self Assessment,” helps exporters assess the strengths and weaknesses of their current
international business partnerships in South East Asia. The on-line questionnaire takes into
consideration such factors as the sales growth of the product/service, profitability of the
relationship, competitive market advantage, market share, strategic gains in the market involved,
and the overall performance. A graphical representation of how well the partnership is
performing and strategies to maximize partnership success are provided to the exporter.

In addition, there is a on-line trend to provide customized information. Team Canada Inc, a
program under the Canadian Trade Commissioner Service, will soon allow user customization by
adding a tool that will organize and classify information into categories and subcategories, much
in the same way that some private sector sites offer. The Australian Trade Commission already
provides this service to Australian exporters. Moreover, the Canadian web site will also include
a notification tool that will automatically inform users of changes to the content in those areas of
interest identified by them. We noted several other web sites that offer customization in our list
of recommended web sites in Appendix A.

During its planning effort, ITA needs to consider offering new on-line products and services,
such as the partnership assessment product and customization.

C.       Improvements should be made to existing on-line activities

We also noted that several on-line activities were useful, but not widely utilized, and other on
line efforts needed some improvements. For example, the US&FCS “contact request e-form” is
an excellent tool for customers to contact U.S. Export Assistance Centers 24 hours a day and for
trade specialists to understand customer needs before calling the customer. The form collects

         23
           Unfortunately, until the Department gives its approval for on-line signatures for this type of agreement,
information will be internally filled out by staff, rather than participants, and entered into the trade events system.
The Department’s CIO office is meeting regularly with departmental and other federal officials to implement an
electronic signature program by the end of 2001.

                                                           21
U.S. Department of Commerce                                                                Final Report IPE-13213
Office of Inspector General                                                                           March 2001

information from a company about its business and its preferences for US&FCS services.
However, we found that the contact request e-form was being used by only two Centers. It may
be that this type of form could be widely employed throughout US&FCS and ITA. During its
planning activities, ITA should explore implementing an on-line form, similar to the US&FCS
contact request e-form, for all ITA offices that assist U.S. exporters.

ITA’s effort to provide on-line subscription services also needs to be reviewed and refined. The
table below identifies five on-line subscriptions we found across ITA’s web sites.

Table 3: Five On-line Subscriptions on ITA’s Web Sites
     Subscription                                Subscription Explanation and URL
       Service
  Subscribe to BISNIS     Based on user interests, MAC’s Business Information Service for the Newly
  Products and Services   Independent States provides information by hard copy and/or by e-mail.
                          http://www.bisnis.doc.gov/bisnis/data/bismail0.cfm
 Export IT ALERT!         TD’s Office of Information Technology provides trade events, information, and
                          research by e-mail. http://exportit.ita.doc.gov/
                          TD’s Office of Environmental Technologies provides information about upcoming
      Mailing List        trade events, market research, publications, and the office newsletter by hardcopy and
                          e-mail. http://infoserv2.ita.doc.gov/ETE/ETEINFO.nsf/frmSubmit?Openform
                          TD’s Office of Tourism notifies users of upcoming or updated data on international
        TI News           travel, new products and services that will be available on the Internet or for ordering,
                          press related events, outreach services, and policy issues by e-mail.
                          http://tinet.ita.doc.gov/tinews/subscribe.html
   China Commercial       US&FCS China provides weekly updates on China’s industry and service sectors by
         Brief            e-mail. http://www.usembassy-china.org.cn/english/commercial/index.html

This is an example where the process for providing subscriptions, currently on an office-by
office basis, should be reassessed and reengineered. A central site that includes all subscription
registrations would allow users to subscribe to several services and provide contact information
only once, rather than supplying the same information across multiple ITA web sites.
Centralizing services will make user interactions easier, faster, and less time consuming because
they no longer have to discover ITA’s multiple subscription services. ITA needs to consider
coordinating and combining similar on-line products and services, such as on-line subscription
services to minimize customers’ efforts and expand its outreach.

In addition, we believe both the search capability for and display of trade leads need to be
improved. The US&FCS trade opportunities program provides the most comprehensive list of
country and industry trade leads. However, despite recent positive changes, the site could still
use some improvement. For example, searching by country, a user must review every lead, 10 at


                                                       22

U.S. Department of Commerce                                                  Final Report IPE-13213
Office of Inspector General                                                             March 2001

a time, to determine the product or industry, a very cumbersome process. One of the best trade
lead sites we identified was in the Department of Agriculture’s Foreign Agricultural Service.
From the Service’s home page, it only takes two clicks to find the on-line trade leads page. The
site allows a search within a customer defined-time frame, or within a block of time, including
past week, and past two years, and by key word, commodity type, and/or country. The display
shows the date, product name, the internationally recognized classification system code, and
country. ITA should be identifying ways to improve the trade lead program and other on-line
products and services during its planning process for GPEA.

Many opportunities for on-line products and services were not identified by ITA during its
planning process, and consequently were missing from ITA’s GPEA Implementation Plan.
ITA’s on-line planning effort was narrowly focused on meeting the objectives of OMB, and
lacked other essential information needed to make informed decisions about on-line activities.
The Department’s Office of the Chief Information Officer agrees and has instructed agencies to
evaluate all transaction types, including information exchanged and disseminated.

ITA’s plan must be more comprehensive, for web sites that do not offer an easy-to-find and easy-
to-use array of products and services will discourage customers from returning. In addition,
customers may not receive the information and services as quickly as they need to react to global
business circumstances, thus losing potential business opportunities. An example of an extensive
on-line action plan is the plan produced by the Australian Trade Commission. The Austrade plan
identifies all of its products and services, and distinguishes between those planned for on-line
versus off-line delivery. The Austrade plan also explains why a product or service is not going to
be on-line, and identifies those off-line products that have potential for being on-line.

ITA's on-line planning approach should be a cross-cutting effort that evaluates all products and
services, whether information is collected or disseminated. In doing so, ITA’s plan should utilize
the latest advances in technology that will streamline ITA’s workload and make user interactions
with the government easier, faster, and cheaper. In addition, because web technology changes so
rapidly, ITA’s on-line implementation plan should be updated annually, or as needed.



ITA concurs with the recommendation to conduct a comprehensive review of its current and
planned products and services. It has already taken some action toward improving its planning
process for placing its information and services on-line. In its response, ITA also recognized the
importance, and provided some examples, of redesigned business process initiatives. We request
that ITA provide us with a copy of its updated GPEA plan.




                                               23

U.S. Department of Commerce                                                                Final Report IPE-13213
Office of Inspector General                                                                           March 2001

IV.	    Improved Mechanisms to Seek and Use Customer Feedback Are Needed

Feedback–both positive and negative–is key to understanding what is important to the customer.
In fact, the single most important source guiding the development of a successful web presence is
user feedback. Feedback allows the web developer to know how to revise content to better meet
user expectations or learn how often a particular site or page is accessed. In the end, unless web
sites are fully utilized, ideally by the target audience, it is a waste of resources.

ITA could be doing more to solicit and manage feedback from customers regarding its web
presence.24 The purpose for collecting feedback is to determine whether ITA’s web sites are
being looked at, are considered useful, or can be improved or added to. Moreover, user
comments have the potential to save money and time for both the customer and ITA. We found
ITA’s process for soliciting feedback confusing and its method of analyzing feedback
disorganized and haphazard. In addition, ITA is not fully utilizing all types of feedback
mechanisms, such as focus groups and on-line requests for content feedback. We noted several
criticisms from customers about ITA’s web sites during our review. In part this has occurred
because ITA has not emphasized the need and importance of obtaining input from the user. As a
result, there is no formal guidance for requesting and using customer feedback.

A. 	    Responsibility for managing customer feedback and maintaining web site accuracy
        must be formally assigned

ITA is not managing customer e-mail feedback in a uniform manner. This includes both the
collection of feedback, and the analysis of feedback, where there is no formal process for sharing
customer information or responding to customer comments.

E-mail requests, comments, and suggestions come from a number of sources for various reasons.
US&FCS solicits comments from users of its web site by providing a feedback form that is
accessed via the banner that appears on every page. A review of 241 e-mail responses to the
US&FCS web site shows the following breakdown: 24 percent were about site content, 21
percent were specific trade-related questions, 20 percent involved technical problems the user
encountered on the site, 13 percent were from students requesting research information, 8 percent
were from foreign companies interested in selling products in the United States, 6 percent were
from companies wanting to sell something to US&FCS, and 8 percent were miscellaneous or
unclear. This breakdown may not be the same for the other ITA web sites, but it is apparent that

        24
            In handling customer feedback, relevant laws must also be taken account. For example, to ensure there is
no undue burden placed on the public, information collections are subject to the Paperwork Reduction Act and must
be approved by OMB. In addition, the recently published final standards for Section 508 of the Rehabilitation Act
require that federal agencies make on-line information collections accessible to persons with disabilities using
assistive technology or make an equivalent accessible option available. (See page 36 for a discussion of both laws.)

                                                        24

U.S. Department of Commerce                                                    Final Report IPE-13213
Office of Inspector General                                                               March 2001

one individual is not capable of responding to all of these different types of comments and/or
inquiries. For example, the Trade Information Center responds to general trade questions quickly
and efficiently, whereas web masters are best equipped to respond to technical issues and web
site owners to answer content queries. Thus, directing e-mail comments to one person is often
inefficient because that individual must in turn forward the e-mail to others, resulting in potential
delays. In addition, it would be more efficient to inform non-ITA customers up-front, such as
foreign companies seeking opportunities to import to the United States, where to go for
information, such as the embassy in the inquirer’s country, rather than waste the user’s time
writing the e-mail and ITA’s time reading or responding to it.

ITA’s new home page and export portal does a great job of directing the user to different contact
points, depending on the question or problem. After clicking on a “contact us” button, the user
has a number of options, including how to obtain media information, ask trade and export
questions, and report technical problems. However, the use of frames, and subsequently the
“contact us” page, were to be eliminated from ITA web sites, except the ITA home page. We
believe that deleting the “contact us” feedback option would not be a positive change, as it allows
the user to route comments to the individual or office best equipped to respond to the feedback.
If the banner, which currently appears on every page of ITA’s web sites, is eliminated, ITA
should establish a policy requiring all units and offices to place a customer feedback option on
their sites similar to the one that appeared on the portal banner. Providing users with the ability
to direct comments to the appropriate contact within ITA is an efficient use of time for all.

An issue related to the collection of feedback is the departmental requirement that every office
site provide an e-mail address for comments and inquiries. The purpose of the standard is to
ensure that users of Commerce web sites are provided a way to contact the organization.
Commerce allows organizations to establish their own policies and procedures for implementing
this recommendation, although ITA has not done so. Most of ITA’s web sites comply with this
standard, providing a general office address or a specific staff person as a point of contact,
usually at the bottom of the page. However, this could cause possible confusion for users who
may want to contact ITA and are confronted with both a general e-mail address and the “contact
us” option. ITA should eliminate one point of contact or explicitly state the differences between
the various contacts, especially when multiple choices appear on the same page.

ITA also lacks a formal process for sharing and analyzing customer e-mail comments. While
many different ITA web managers and trade specialists are using a variety of approaches for
evaluating and sharing customer e-mails for most ITA web sites, there is no formal guidance for
managing this diverse effort. For example, US&FCS customer e-mails are analyzed by two
technical liaison web masters, while MAC’s CEEBIC customer e-mails are answered by trade
specialists, and TD e-mails are responded to by either a trade specialist or a web master. While
using different approaches may not necessarily be wrong, it does indicate that the process for
handling, reviewing, and sharing customer e-mails needs to be formalized. Without such a

                                                 25

U.S. Department of Commerce                                                   Final Report IPE-13213
Office of Inspector General                                                              March 2001

formal process, the comments may not all be receiving the consistent, high quality attention that
ITA desires. ITA needs to provide a formal approach for how the e-mail comments from
customers are analyzed and shared with others.

In addition, ITA has not formally assigned responsibility for who should be receiving and
analyzing e-mails from customers. ITA’s customer e-mails are received by numerous individual
web masters and trade specialists. However, many of these individuals have been assigned the
responsibility on an ad hoc basis. With no established guidance to assign specific individuals the
responsibility for addressing customer e-mails, ITA may not always be providing reliable
responses to these comments. ITA needs to assign formal responsibility for addressing customer
comments to ensure a consistent and high quality effort.

The final issue with regard to customer e-mail comments is that ITA needs to give more attention
to “closing the feedback loop.” Most of the feedback options, including the one on ITA’s home
page and export portal site, do not tell users if a response to their e-mail will be forthcoming. As
a result, customers usually do not know if ITA will be responding or addressing their comment.
One customer told us that she was disappointed when ITA did not respond to her e-mail
suggestion to allow Country Commercial Guides to be printed in full, rather than a chapter at a
time. This customer was expecting to receive an acknowledgment from ITA that it had received
her e-mail and that it was working on a solution. Several federal web sites that post their policy
for responding to customer e-mails are listed in Appendix A, as notable web sites for customer
service. For example, the Environmental Protection Agency’s web site states that it strives to
respond to customer comments about the site, or refers the comment to the appropriate program,
within 10 business days. ITA needs to determine whether customers should receive a response,
and if so, when it can be expected. ITA should also post the policy on its web site.



In its response, ITA states that it agrees with the recommendation. ITA clarified that the banner
currently in place will be removed once the use of frames is eliminated from the site and that a
consistent header, which is set to replace the banner, will continue to utilize the “contact us”
option. ITA’s response did not address how user e-mail comments, questions, and concerns are
to be acknowledged and managed. In its action plan, ITA should address what policies and
procedures will be established for collecting and managing e-mail feedback from users.

B. 	   ITA’s efforts to determine customer requirements and satisfaction need to be more
       comprehensive

The best way to obtain user input is to ask for it. We found that ITA has not been utilizing
different types of feedback mechanisms, such as focus groups and interactive on-line surveys, to
get user problems, comments, and concerns. There are a number of methods and techniques to

                                                26

U.S. Department of Commerce                                                     Final Report IPE-13213
Office of Inspector General                                                                March 2001

obtain information from customers about web sites and on-line products and services that should
be considered, including some that are successful in one part of ITA that could be tried by others.
For example, MAC’s BISNIS currently sends out e-mail requests to those on its subscription list
asking customers if BISNIS has been helpful. In addition, US&FCS is planning to proactively
contact customers to develop success story information. The process will be automatic, whereby
an e-mail message, with a link to an on-line form, will be generated and sent to the contact points
in companies that have participated in US&FCS activities. While these are good examples, more
needs to be done by ITA to solicit user feedback.

Focus groups are one approach that can help ITA assess user needs and problems with its web
presence. A focus group is an extended group interview or meeting, run by a moderator, that
brings users together to discuss issues and concerns about web site features. This feedback
technique is widely used in the private sector. The primary benefit of focus groups is to identify
in detail what customers want from the Internet. In addition, an organization can learn a great
deal by observing how the users in the group navigate the web site. As mentioned previously,
SBA used focus groups to pre-test its Tradenet portal. One SBA official stated that the
terminology on the Tradenet portal was revised based on feedback obtained from focus groups.
Unlike SBA, ITA did not use focus groups to pre-test the “customer intentions” that were
developed in-house before going on-line and, as a result, it is currently revising the intentions
based on input received from TPCC members. ITA should consider using focus groups as a
method of understanding customer needs prior to launching a new web site or making major
changes to an existing site.

Users are more likely to respond to feedback requests if it occurs at the same time and place that
they are using the Internet. Yet obtaining customer feedback about web site content, either by
posting a question asking for comments or using an interactive questionnaire, is not a widespread
activity across the ITA web sites. There are a few examples of ITA’s efforts to collect feedback
about a specific product. TD’s Office of Textiles and Apparel solicits comments about a
database via e-mail and MAC’s BISNIS web site asks for on-line comments about a specific
report. US&FCS includes a customer survey in the body of a market report, but it cannot be
entered or returned on-line, requiring additional efforts by the customer to print, fill out, and mail
or fax the response back to ITA. A web site that includes an e-mail address and a message such
as, “Find a problem in this article? Send us an e-mail” would provide ITA with important
feedback about specific content on its site.

The use of on-line interactive surveys is another method used to collect feedback quickly and
efficiently. The only on-line interactive information collection we noted is the US&FCS
“E Expo USA” customer survey that asks eight questions about satisfaction with the program,
specifically a virtual trade show booth, and whether there have been any export successes. More
could be done by ITA to solicit real-time feedback. In the private sector, many web sites provide
a survey or questionnaire asking about the content in a variety of formats. Figure 4 is an example

                                                 27

U.S. Department of Commerce                                                 Final Report IPE-13213

Office of Inspector General                                                            March 2001


Figure 4: Example of an On-line User Survey            of a potential on-line user survey. The
                                                       survey encourages the reader to rate the
                                                       product on-line based upon a five-point
                                                       scale and provides the user with the
                                                       opportunity to furnish written comments
                                                       about the current or future product. Such
                                                       information would be helpful to ITA to
                                                       assess how others rate the materials
                                                       provided. ITA should consider utilizing
                                                       brief, immediate questionnaires regarding
web site content, and ensure that any questionnaires comply with Paperwork Reduction Act
requirements.

Finally, ITA has taken one positive step toward trying to understand customers’ preferences by
beginning to utilize web usage statistics. Web usage statistics define the characteristics and
usage of customers who visit a web site. In the past year, US&FCS and TD started to collect and
analyze web statistics for making decisions about the web site, including allocating more
resources to updating web sites with many users and making improvements to web sites with few
users. MAC is in the process of implementing the collection of web statistics as well. Web
usage statistics are a valuable tool to help ITA managers make improvements to the web sites
and for allocating resources to web projects more effectively. ITA should continue to implement
and utilize web usage statistics, and coordinate the analysis to ensure that these statistics are
consistently interpreted and utilized throughout ITA.

During this review, we heard a number of customer comments that indicate improvements to ITA
web sites are needed. The following figure lists several examples of problems and suggestions to
improve the ITA’s web presence that customers brought to our attention.




                                               28

U.S. Department of Commerce                                                         Final Report IPE-13213

Office of Inspector General                                                                    March 2001



Figure 5: Selected Customer Comments About ITA Web Sites
  �   List of industries excludes a few important         �   The most current lead I’ve been able to find
      ones such as environmental services, solid              is 6 months old, which makes it difficult to
      waste, and air pollution.                               compete if others are getting this
                                                              information first.
  �   The advanced search doesn’t break down
      market research by industry and country.            �   Your site is full of bad links and bugs. I
                                                              cannot navigate with your buttons as half
  �   ITA’s site should provide business                      of them don’t seem to go anywhere.
      information by sector, trade data on-line, and
      customized market reports.                          �   It would be extremely helpful to get
                                                              Country Commercial Guides in full instead
  �   Looking up information in the InterAmericas             of by chapter.
      web site is too difficult to find!!! After 10
      minutes, still have not found it.                   �   US&FCS did not respond to my e-mail and
                                                              phone message about problems.
  �   You should allow for choosing more than
      one item from the list of products that a           �   Most government web sites, including
      company sells.                                          ITA’s, are constantly being reorganized. I
                                                              just get accustomed to a site and it changes.


Many of these customer comments have the potential to save money and time for both the
customer and ITA. To meet the needs of its customers, ITA should review and consider
implementing the suggestions in Figure 5. In addition, ITA should do more to manage customer
e-mails and utilize all varieties of feedback mechanisms. We believe this has not been done
because it has not been a high priority to obtain and address feedback from web site users. In
addition, ITA should establish guidance, requirements, and a formal process for requesting and
using customer feedback about its web site.


ITA concurs with this recommendation. However, ITA noted that one customer comment, that
“ITA’s site should provide business information by sector, trade data on-line, and customized
market reports,” was misleading because TD’s individual industry offices provide business
information by sector, TD’s Office of Trade and Economic Analysis provides trade data, and the
US&FCS site carries customized market reports. However, we believe that even though the
information may be available on ITA’s site, the user’s difficulty in finding the information
should be of equal concern. ITA provided a copy of a focus group plan that included an on-line
survey. We ask that ITA provide us with a summary of the results of any focus groups sessions
that have occurred by the time the action plan is submitted.




                                                    29

U.S. Department of Commerce                                                                Final Report IPE-13213
Office of Inspector General                                                                           March 2001

V.       Guidance Is Needed for Construction and Maintenance of ITA Web Sites

The maintenance of the pages on the ITA web sites varies from office to office. A web page
includes at least the following elements: copy, graphics, layout, and internal technical design. It
may also have the ability to hook into existing databases and if the site has more than one page,
or has links to other web sites, it needs to be designed for navigation. We found differences in
the quality of pages. We believe this has occurred because there are no internal standards to
guide the more than 300 web site owners who are responsible for creating and maintaining the
pages on ITA’s web sites. As a consequence, users will leave ITA’s web sites and look
elsewhere for the information they are seeking.

Unlike the earlier section that discussed web site content and the requirement for more
cooperation between ITA program managers and web masters, this section is concerned with web
site maintenance issues that are primarily the responsibility of web masters and web site owners.

Although not every page should look the same, the consensus in the industry is that the pages on
a site should have some similar characteristics. With no common use of colors, fonts, or
navigation tools, the ITA’s web presence lacks a “corporate image.” Even within the TD and
MAC web sites the look of the different office sites varies significantly. The same is true for the
few US&FCS overseas and domestic office web sites that were not eliminated when US&FCS
streamlined its web presence. We understand the ITA portal task force is beginning to address
these issues and is in the process of establishing standards for navigation, colors, and fonts so
that the customer will encounter a similar look and feel across the ITA web sites. We fully
support this effort and suggest that guidance regarding the use of graphics on the web sites also
be incorporated into the standards.

In the early stages of ITA’s web development efforts, the focus was on creating an Internet
presence; and the need for future maintenance of the sites was often overlooked. However, when
sites are poorly maintained, a number of problems can occur. We identified some problematic
areas on ITA’s web sites, including the collection of “cookies,”25 outdated information, pages
indefinitely “under construction,” and non-working links. This is a partial list of the problems
that need to be corrected as well as addressed by an internal set of guidelines.

Unapproved cookie collections should be stopped

We found a number of sites where cookies are being collected. According to a June 22, 2000,

         25
            A message that a web server causes to be placed on a user’s hard drive that can be read by the server.
The message is stored in a text file called "cookie.txt." While some cookies are used only in the browser session in
which it is created, this discussion primarily refers to cookies that maintain information over multiple browser
sessions. For more information about cookies, refer to the glossary in Appendix B, page 46.

                                                         30
U.S. Department of Commerce                                                               Final Report IPE-13213
Office of Inspector General                                                                          March 2001

OMB memorandum, federal web sites will not collect cookies unless there is a compelling need.
If cookies are being collected, this must be publicly disclosed, and the agency head must approve
the collection. We found at least five ITA sites where cookies are being collected that did not
meet the above criteria. When we raised the issue, we found that most offices were unaware that
cookies were being collected. Upon further investigation, it was discovered that the cookies are
being collected by the company that provides an interactive communication tool being used by
the various office sites. The Department’s CIO office was unaware of this use of cookies and
forwarded the problem to the Web Masters Group,26 which is responsible for establishing
departmental standards. On January 11, 2001, the CIO Council adopted a cookie policy
developed by the Group. The policy prohibits the use of cookies on Department of Commerce
web sites except where there is a compelling need, there are appropriate safeguards in place, the
use is personally approved by the Secretary of Commerce, and there is clear and conspicuous
notice to the public. The policy also outlines the process for gaining approval for the use of
cookies. ITA should stop the use of cookies and ensure that, unless approved, cookies will not
be collected on any ITA web sites. ITA should also issue guidance to ITA’s web site owners
about the new cookie policy along with any ITA procedures for gaining approval.

Outdated information on ITA web sites should be removed, updated, or archived

Maintaining current information is a challenge faced by most web sites. When old information is
not removed, updated, or archived, it can mislead a web site user or give the user a poor
impression about the usefulness of the site. At the time of our review, we found some examples
of outdated information on ITA’s sites. For example, the market development cooperator
program in TD had fiscal year 2000 application information for the program on the site, two
months after the end of the fiscal year, and no mention of the program’s intentions for fiscal year
2001. Even with the uncertainty of fiscal year 2001 appropriations, some information regarding
the status of the program should be provided on the site. Another example is the Mercosur27
home page in MAC, which had not been updated in over a year, although the web site owner,
who is on a detail to another office, intends to update it as soon as he is available to do so.
Guidelines for updating and archiving information should be established by ITA.

We also found instances where we could not tell if information was current or not. Web site


        26
           The Web Masters Group consists of members from across all of Commerce and serves as an advisory
body to the Department of Commerce CIO and the Department’s CIO Council. The group provides input on a
number of matters, including Departmental Internet policy issues and standards. For more information about the
Group, refer to the glossary in Appendix B, page 46.
        27
           A site with information about the Treaty of Asuncion, which provides the legal basis for the Southern
Common Market (Mercosur), which will eventually allow for the free movement of goods, capital, labor, and
services between Argentina, Brazil, Paraguay, and Uruguay.

                                                        31
U.S. Department of Commerce                                                           Final Report IPE-13213
Office of Inspector General                                                                      March 2001

information with no reference to a date (e.g., last updated 02/14/01) can be confusing and leave a
poor impression. For example, the TD Service Industries and Finance section lists markets of
opportunity for the services industry. While this may be a very useful product, it does not
indicate when the information was posted and/or last updated. Guidelines for providing the date
that information is posted or last updated, whichever is appropriate, should be developed.

No page should indefinitely be “under construction”

As with many web sites, we found pages indefinitely “under construction.” Some experts state
that if a web site is not finished, it should not be shown. While this may not be realistic for
existing sites undergoing a change, ITA should establish some rules about new pages, such as
how long a site can be under construction, or whether a site under construction should be on-line
before it is completed.

Links should be operational and external links should be apparent when accessed

Dead links inevitably occur on web servers as pages are modified, moved, or deleted over time.
ITA should ensure that all links are valid and operational. A related issue are links to other
organizations that are not clearly identified as external links and, when accessed, do not inform
users that they are not on an ITA web site. For example, from MAC’s Free Trade Area of the
Americas (FTAA) home page, if users click on “Progress in the FTAA” and then click on any of
the six hypertext options, they are taken to an external site.28 However, users have no way of
knowing that they are no longer on an official ITA site. Moreover, some external sites collect
cookies, like FTAA, giving the false appearance that ITA is collecting the information.

Standards and guidelines are needed

The web site is part of an organizations’s public face. Lack of ongoing maintenance can reduce
the impact and value of even the best-designed and most interesting site. This can reflect poorly
on the organization and may cause users to abandon the site and not return.

As mentioned previously, ITA allowed units to develop and manage their sites on an office-by
office basis with little or no guidance from ITA and the Department. US&FCS is the only unit
that developed some minimal standards for its web site. Many other organizations, such as the
Australian government and SBA, have developed guidelines and standards for web site owners to
abide by. The Australian government guidelines are very thorough and cover all forms of


        28
          A site maintained by the Inter-American Development Bank, the Organization of American States, and
the United Nations Economic Commission for Latin America and the Caribbean on behalf of the member
governments of the countries participating in the Free Trade Area of the Americas.

                                                     32
U.S. Department of Commerce                                                   Final Report IPE-13213
Office of Inspector General                                                              March 2001

electronic publishing—CD-Rom, diskette, and the Internet. The Internet guidelines cover
structuring and creating the site, navigating the site, structuring information, page design, and
metadata (how the information will be described). The SBA standards are not as complete but
offer good guidelines for the web site owner. Because there are so many people involved with
ITA’s web sites, internal standards and guidelines for constructing and maintaining web sites are
particularly important.


As acknowledged in the draft report, the ITA portal task force had already begun the process of
establishing official ITA web standards. In its response to our draft report, ITA states that the
standards include policies and guidelines in a number of areas. Since it is not clear that the areas
covered in this section of the report will be included in the proposed standards, we request that
ITA provide us with a copy of the standards with its action plan.




                                                 33

U.S. Department of Commerce                                                          Final Report IPE-13213
Office of Inspector General                                                                     March 2001

VI.    ITA Must Ensure Compliance with Established Standards and Laws

ITA is continuing its efforts to bring its web sites into compliance with five departmental
standards and two federal statutes—the Paperwork Reduction Act of 1995, for which the
Department has issued guidelines, and the proposed Section 508 of the Rehabilitation Act, for
which OMB has recently issued final regulations.

A.     ITA needs to ensure compliance with departmental standards

As of November 2000, the Department had established five web site standards.29 Most of ITA is
in compliance with the standards, but we did find some sites that were missing some of the
information that is now required. Since there are few incentives for the staff in charge of the web
sites to implement the standards, ITA should find the means to ensure prompt compliance.

The Department’s web standards have been developed by the Web Masters Group, submitted to
the Chief Information Officer Council, and approved by the Commerce Chief Information
Officer. How the standards are to be implemented is left up to each operating unit. For example,
the first standard states that every agency home page shall link to the Commerce home page, but
does not specify what the link should look like or where it should appear on the page. The five
standards are listed below.

        Commerce Web Standards as they apply to ITA
       1.   ITA home page shall link to the Commerce home page.
       2.   Every home page within an ITA organization shall link to ITA’s home page.
       3.   All web pages shall identify the organization managing the web site.
       4.   Every web site shall provide an e-mail address for comments and inquiries.
       5.   All major points of entry and any page where information is collected shall
            include a clearly identifiable link to the Privacy Statement.



In addition to these five standards, the Web Masters Group is working on a standard requiring all
Commerce web sites to have “.gov” domain name and another requiring agency CIOs to certify
that all web sites within their organization comply with the Department’s web standards and
policies.

ITA is in compliance with the first standard; the ITA home page links to the Commerce home
page. While most of the unit sites are in compliance with the remaining four standards, we found


       29
         The standards can be found on the Web Master’s Group web site at http://www.doc.gov/webresources/.

                                                    34
U.S. Department of Commerce                                                   Final Report IPE-13213
Office of Inspector General                                                              March 2001

some exceptions.

The second standard requires that all office home pages include navigational links to the home
page of a higher level organization within its hierarchy. For example, all industry sites should
link to the TD home page, and the TD home page should, in turn, link to the ITA home page.
We found instances where links do not exist. For example, MAC's China gateway, the US&FCS
information and communications technology team’s site, and TD’s industry consultations
program do not have links to higher levels of the organization. The purpose of this standard is to
establish a series of navigational links that will eventually lead the user to the ITA home page
which, in turn, will take the user to the Commerce home page, per the first standard. If users
follow links directly to subsection pages buried deep within the hierarchy of web sites, they may
never see the home page or other introductory information in the site. “Dead-end” pages with no
links to any other local page in the site can be frustrating for users and are a lost opportunity to
bring users to other pages in the site. All pages should contain links going up the hierarchy, so as
to enable users to access other portions of the web site.

The third standard requires that web pages identify the “web site owner.” The standard does not
specify how or where the identifier should appear on the page, leaving these decisions to the
operating unit, and only applies to pages that have been modified since the August 11, 2000,
implementation deadline. TD’s new “safe harbor” program home page is an example of a web
site that is not in compliance. The standard allows users to know which organization within ITA
is responsible for providing the information or service they are viewing.

The fourth standard requires every Commerce organization to provide an e-mail address for
comments and inquiries. Most pages have a contact point listed; however, as we discussed
earlier (see page 24), ITA could, by providing more detailed guidance to web site owners, do
more to solicit and use feedback from customers.

The fifth standard requires that every major point of entry, and any page where information is
collected on any Commerce site, include a clearly identifiable link to the privacy statement.
Privacy statements inform users how information collected over the Internet will be used and
protected. We found that MAC’s home page and the Trade Compliance Center in MAC, both
major points of entry, do not have the privacy statement listed. In addition, two pages where
information is collected can be found on TD’s Tourism industries site and another on the
US&FCS Women in International Trade site, none of which link to a privacy statement. Ignoring
this standard may discourage users from participating in interactive on-line activity or even
viewing the site because they will not know how ITA is using and protecting information or
whether the site may be tracking user preferences through the use of cookies.

Each standard was put in place for a particular purpose. Possible consequences of a standard not
being fully implemented include dead-end pages and user frustration. We believe some web

                                                35

U.S. Department of Commerce                                                 Final Report IPE-13213
Office of Inspector General                                                            March 2001

publishers are not implementing the standards because they are either unaware of the standards or
do not consider implementing them to be a high priority. Moreover, there are currently no
incentives to comply with the standards. ITA should ensure prompt compliance with
departmental standards by providing guidance on the standards and their usage and holding web
masters and web site owners accountable for compliance.



In its response, ITA stated that as recognized in the report, progress has been made in ensuring
compliance with Departmental web standards and that ITA will continue to work toward full
compliance. In addition, in response to the prior recommendation to develop internal standards
and guidelines, ITA said that its proposed web standards will contain reference to all of the
Department’s web standards.

ITA did not directly indicate how web masters and web site owners will be held accountable for
compliance. If the ITA web standards address this issue in response to the recent Departmental
Certification Policy (Enforcement of Web Site Standards and Policies), then no further action is
needed as we have previously requested a copy of ITA’s web standards as part of its action plan.
If, however, ITA’s web standards do not address how compliance will be ensured, please provide
us with an explanation in the action plan.

B.     ITA needs to provide guidance and oversight to staff on federal legal requirements

Two federal statutes—the Paperwork Reduction Act of 1995, which covers regulations for the
collection of information from the public, and Section 508 of the Rehabilitation Act, which
covers equal accessibility to information technology—present complex issues affecting ITA’s
web presence. Both statutes require continued oversight and guidance from ITA to enable the
agency to achieve full compliance.

Paperwork Reduction Act of 1995

Since 1942, the Paperwork Reduction Act and its predecessors have provided policy and
established requirements for the government collection of information. The Paperwork
Reduction Act of 1995 requires federal agencies to seek OMB approval when collecting
“standardized” information from 10 or more persons outside the federal government. The act
covers all types of data collection techniques—paper, telephone, in-person, and electronic means.
Approval is required whether the information collection is voluntary or mandatory. Once
approved, the office collecting the information must inform respondents why the information is
being collected, how it will be used, approximately how long it will take to provide the
information, and whether the information is mandatory or voluntary, and provide a valid OMB
control number.

                                               36

U.S. Department of Commerce                                                        Final Report IPE-13213
Office of Inspector General                                                                   March 2001

Contact information, such as name, address, business/company name, telephone and facsimile
numbers, and e-mail addresses are not covered by the act. In addition, general, open-ended
questions and undifferentiated “suggestion boxes” requesting ideas, comments, and suggestions
are also exempt from the act because the questions are not “standardized.” For example, MAC’s
Trade Compliance Center has an on-line hotline form that collects contact information and asks
the respondent to “Tell us in your own words the problem you are encountering or the question
you have. Take as much space as you need.”

We found information collection activities on ITA web sites that did not meet the requirements
of the act. Some approved collections were missing the burden statement and other required
information, while other collections have apparently never been approved. Among the
information collection activities we found that have been approved by OMB but are missing the
required control number and/or the burden statement information include TD’s export finance
matchmaker questionnaire, TD’s safe harbor program survey, and US&FCS’s Orange County
export assistance center’s preliminary consultation survey.30 Surveys and other requests for
information that have apparently never been approved by OMB include TD’s Environmental
Technologies industry office non-tariff barriers survey, TD’s Tourism industry office
subscription sign-up form, and TD’s Service Industry and Finance office electronic mailing list
subscription information.

The Paperwork Reduction Act was implemented to minimize the public’s burden in responding
to government requests for information. The act is also in place to ensure that similar collections
of information are not occurring elsewhere in the government. Guidance regarding complying
with the act on departmental web sites was issued by the Department as recently as April 1999.
However, either the guidance did not reach all levels of staff or, due to personnel changes and
turnover, the current staff is unaware of the act’s restrictions. In addition, the ITA office
responsible for the oversight of the act was unaware of all of the information collection activities
occurring on the web site.

ITA needs to prepare the necessary guidance to ensure that all staff are regularly informed about
the restrictions for collecting information from the public. ITA should also conduct periodic
reviews of web sites to ensure compliance with the Paperwork Reduction Act.

Accessibility Standards

Section 508 of the Rehabilitation Act requires that when a federal department or agency
develops, procures, maintains, or uses electronic and information technology, it shall ensure that
the technology is accessible to people with disabilities, unless it can demonstrate that an “undue


       30
         OMB control numbers, respectively, are 0625-0232, 0625-0239, 0525-0237.

                                                   37
U.S. Department of Commerce                                                              Final Report IPE-13213
Office of Inspector General                                                                         March 2001

burden” would be imposed on the department or agency. In general, electronic and information
technology becomes accessible to persons with disabilities when it can be used or accessed
through more than one human sense or ability. The standards apply to federal web sites but not
to private web sites, unless those sites were developed, procured by, or provided under contract
to a federal agency.

The Access Board, an independent federal agency devoted to accessibility for people with
disabilities, developed and published the final standards for ensuring access to electronic and
information technology on December 21, 2000, in the Federal Register. The standards will
become effective on June 21, 2001.

ITA has made a start toward ensuring compliance with Section 508. In August 2000, the ITA
web master asked web managers and publishers to run their home pages through an automated
diagnostic software tool, called “Bobby,”31 to identify significant barriers to people with
disabilities.

We conducted “Bobby”-assisted reviews of the home pages and found that home pages that were
in compliance at one time, were now out of compliance. The new ITA home page and export
portal have never been in compliance with Section 508, which is one of the primary reasons
given for eliminating the existing banner and reworking the portal. The results of our US&FCS,
TD, and MAC home page reviews are shown in Table 4.

Table 4: ITA unit home pages that pass the “Bobby” accessibility test
   Test results as of:        MAC                    TD                                      US&FCS
 November 30, 2000                   Accessible                Not Accessible                Accessible

 January 3, 2001                     Accessible                Not Accessible               Not Accessible

MAC passed the accessibility review in both November and January. TD’s home page, however,
did not pass on either date even though TD displays the “Bobby” seal of approval on its home
page. The TD web master explained that the home page was compliant with an earlier version of
the diagnostic tool. The “Bobby” test printout indicated that TD’s home page requires alternative
text for a number of images, a relatively easy fix. The US&FCS home page passed in November
but did not pass in January. The ITA web master suggested that moving the US&FCS web site
from one server to another and tightening security might account for the loss of the positive
accessibility rating.

        31
           The Bobby diagnostic tool was developed by the Center for Applied Special Technology, a not-for-profit
organization whose mission is to expand opportunities for people with disabilities through innovative uses of
computer technology. Information about Bobby and the Center can be found at http://www.cast.org/bobby.
.

                                                       38
U.S. Department of Commerce                                                   Final Report IPE-13213
Office of Inspector General                                                              March 2001

As shown, ITA has made a start toward ensuring compliance with Section 508. As we noted,
however, changes made to a page or with a server can easily impact the accessibility rating. ITA
must take appropriate actions now to ensure that web sites will be in compliance with Section
508 of the Rehabilitation Act once it becomes effective on June 21, 2001.



With regard to the Paperwork Reduction Act, ITA’s response stated that it has prepared and
made guidance about the act available on-line, issued announcements, and established controls
for information collection activities. ITA also stated that it will conduct annual reviews of the
web site in addition to periodic checks. Finally, ITA resolved all of the information collection
activities that were identified in the draft report as problematic.

ITA stated that it has already devoted considerable attention to compliance with Section 508 of
the Rehabilitation Act. Its policies and guidance on Section 508 will be included in the ITA web
standards.




                                                39

U.S. Department of Commerce                                                    Final Report IPE-13213

Office of Inspector General                                                               March 2001


                                    RECOMMENDATIONS

We recommend that the Under Secretary for International Trade:

1.	    Create an ITA Web Governance Board made up of senior-level program managers and
       web experts to ensure that the content on ITA’s web sites is organized around customer
       requirements and does not duplicate existing information. The Board’s efforts may
       include, but should not be limited to (a) consolidating like information into one database,
       (b) creating an application group, preferably by expanding the existing US&FCS e-
       commerce task force, (c) increasing the use of links, (d) developing and using a common
       dictionary of terms to better manage web site content, and (e) deciding what and where
       information should be provided on the ITA web sites and assigning office responsibility
       (see page 10).

2.	    Prepare a formal proposal to the Secretary of Commerce to present to the Trade
       Promotion Coordinating Committee that calls for the creation of a standing committee on
       information technology. The standing committee should be composed of senior-level
       program and technical experts, to coordinate, develop, and maintain interagency on-line
       export information and services. The standing committee should have non-voting
       representation on the ITA Web Governance Board (see page 15).

3.	    Conduct a comprehensive review of ITA’s current and planned products and services to
       identify and reengineer those that could be placed on-line, with an emphasis on
       expanding customer transactions, as appropriate. This review should result in a plan that
       will (a) identify off-line products that have the potential to be on-line, (b) explain why an
       off-line product or service is not going to be on-line, (c) identify new opportunities for
       on-line transactions, (d) identify ways that existing on-line products and services will be
       improved, and (e) be updated annually or as needed (see page 19).

4.	    Make appropriate use of feedback mechanisms to improve web sites, such as establishing
       policies and procedures for collecting and managing e-mail feedback from users and
       utilizing focus groups, real-time surveys, and web statistics (see page 24).

5.	    Develop internal standards and guidelines for maintaining high-quality web sites. The
       guidelines should include specific instructions to web masters and web site owners about
       cookies, archiving information, identifying when information was posted or last updated,
       and maintaining external links to ensure that they are valid, operational, and clearly
       identified as external links (see page 30).

6.	    Ensure prompt compliance with departmental web site standards (see page 34).


                                                40

U.S. Department of Commerce                                                  Final Report IPE-13213
Office of Inspector General                                                             March 2001

7.	    Prepare the necessary guidance to ensure that all staff are regularly informed about the
       Paperwork Reduction Act and its restrictions on collecting information and conduct
       periodic reviews of web sites to ensure compliance with the act (see page 36).

8.	    Take appropriate action to ensure on-going compliance with Section 508 of the
       Rehabilitation Act once it becomes effective on June 21, 2001 (see page 37).




                                               41

  U.S. Department of Commerce                                                                Final Report IPE-13213
  Office of Inspector General                                                                           March 2001

                                                                                                   APPENDIX A

                                Recommended Web Sites and Best Practices

    Organization                                                  Description
ON-LINE PRODUCTS
Australian Trade        Australian government’s “Partnership Self Assessment” allows exporters to assess the
Commission              strengths, weaknesses, and potential for success of their existing business partnerships in South
                        East Asia. http://www.austrade.gov.au/exportassistance/partnerships/
Canadian Business       Canadian public-private cooperative effort that allows customer to write a business plan on-line
Service Centers         using the “Interactive Business Planner.” http://www.cbsc.org/ibp/
TSCentral               A private sector trade event company sponsors on-line discussions between exhibitors on its
                        Trade Show Central web site. http://ww0.tscentral.com/CommunityCenter/index.jhtml
CUSTOMIZED INFORMATION
Small Business          Tradenet.gov portal allows for a personal, customized page similar to a yahoo home page.
Administration          http://www.tradenet.gov/MyExport/bin/myexport.pl
Industry Canada’s       Canadian government site where users can create customized market reports based upon
“Strategis”             selected topics and countries from the CIA World Factbook, international business practices,
                        market research reports, and US&FCS Country Commercial Guides.
                        http://strategis.ic.gc.ca/SSG/bi18351e.html
Canadian Trade          Canadian government site that will soon offer a tool that will organize and classify information
Commissioner            into categories and sub-categories, similar to a Yahoo page. The site also intends to include a
Service’s               notification tool that will automatically inform users of changes to the content in those areas of
Team Canada, Inc.       interest identified by them. http://exportsource.gc.ca/dindex2_e.html
California Trade and    State of California customized web site collects information about the customer, then
Commerce Agency         highlights information that is relevant to the customer’s specific business needs.
                        http://www.commerce.ca.gov/custom/
Australian Trade        Australian government site lets a registered user create a customized “My Online” site with
Commission              personal preferences. http://www.austrade.gov.au/toolbar/subscribers.asp
SUBSCRIPTION SERVICES
Foreign Agricultural    U.S. Department of Agriculture site where the user can subscribe to on-line press releases and
Service                 attache reports. http://www.fas.usda.gov/scriptsw/attacherep/default.asp
Department of Energy    U.S. Department of Energy site that has a free, “Fossil Energy News Alert” e-mail service.
                        Customers receive an e-mail each time the web site is updated for specified areas of interest.
                        http://www.fe.doe.gov/newsalert/newsalert_signup1.html
Department of Energy    U.S. Department of Energy E-Mail (Listserv) notification, where a customers can receive
                        e-mails on over 40 energy subject areas. http://tonto.eia.doe.gov/email/index.htm
Australian Trade        Australian government site where exporters can access export intelligence, including
Commission (Austrade)   customized export news, information, targeted e-mail updates, discussion group forums, and
                        market profiles. http://www.austrade.gov.au/toolbar/subscribers.asp


                                                         42

  U.S. Department of Commerce                                                                Final Report IPE-13213

  Office of Inspector General                                                                           March 2001



   Organization                                                  Description
Singapore Trade        Singapore trade promotion agency site that allows a Singapore-based company to subscribe to
Development Board      up to six types of market alerts for five countries. http://www.tdb.gov.sg/emailalerts.shtml
ON-LINE USER SURVEYS
Microsoft Network      A private sector site with an on-line survey that encourages the reader to rate the article based
                       upon a five-point scale and allows the user to provide written comments. The number of users
                       and current rating of the article are displayed, as well as the option to read other user
                       comments. http://www.msn.com
MSNBC                  A private sector site with an on-line survey that asks users to rate whether they would
                       recommend the story to other viewers on a seven-point scale. After the user rates the news
                       story, a screen appears thanking the user for voting and then provides the option for the user to
                       see the current “Top 10” rated list of news stories. http://www.msnbc.com
Newsmedia              A private sector site with an on-line survey asking users to please rate the article on a five-point
                       scale. http://www.newmedia.com/
EASY-TO-USE
Texas Department of    State of Texas economic development clearinghouse allows users to provide on-line
Economic               suggestions for additional economic development resources to be added to the database.
Development (DED)      http://www.edinfo.state.tx.us/about.htm
Texas DED              State of Texas site that allows users to download and print DED application forms.
                       http://www.tded.state.tx.us/download/
Arlington County,      Commonwealth of Virginia site has a listing of all state on-line forms that can be downloaded
Virginia               for printing, with some that can be submitted on-line.
                       http://www.co.arlington.va.us/web/forms_on.htm
The White House        U.S. government site that redirects the user to another page on the site when a user is sent to an
                       old link where the “Page Does Not Exist.”
                       http://www.whitehouse.gov/cgi-bin/Correspondence/Mail_Developer
Department of          U.S. Department of Education site provides various departmental program guides in both text
Education              and pdf files to minimize user compatibility issues. http://www.ed.gov/pubs/guides.html
Department of Energy   U.S. Department of Energy site lists on-line publications that can be sorted alphabetically or
                       chronologically and printed. http://www.em.doe.gov/doclista.html
The White House        U.S. government site with a powerful search engine that links to all online U.S. Federal
                       Government resources. http://www.firstgov.gov
ON-LINE EXHIBITIONS & TOURS
Trade Partners UK      British government site that allows customers to take a guided tour of the site, with moving
                       pointers to highlight the key features on the site. http://www.tradepartners.gov.uk/
NASA                   National Aeronautics and Space Administration site has a virtual tour of a space station.
                       http://spaceflight.nasa.gov/gallery/vtour/index.html




                                                         43

   U.S. Department of Commerce                                                                Final Report IPE-13213

   Office of Inspector General                                                                           March 2001



    Organization                                                   Description
MULTIPLE LANGUAGES
Trade Partners UK        British government site that is available in six languages for international buyers covering the
                         UK international network of offices, finding UK partners, and investors.
                         http://www.tradepartners.gov.uk/international.html#top
ON-LINE TRADE LEADS
Texas DED                State of Texas site with a market place that allows companies to post buy and sell ads. Users
                         can browse by industry group or search by key word. http://www.marketplace.state.tx.us/
Foreign Agricultural     U.S. Department of Agriculture site offers trade leads by country, commodity and date.
Service                  http://www.fas.usda.gov/scripts/agexport/tradeleadquery.asp
Exporthotline.com        Private sector site where users can search the ExporTel database of potential partners, buyers,
                         customers, and suppliers, by keyword and view the resulting matches.
                         http://exporthotline.com/content/layout/asp/ehc_layout.asp
ENCOURAGES OTHERS TO LINK TO YOUR SITE
Australian Trade         Australian government site that provides guidance to external entities regarding linking to the
Commission               Austrade site. Guidance includes the URL to use, brief description of Austrade on-line, use of
(Austrade)               the Austrade logo, and conditions of linking to Austrade on-line and republishing material from
                         its site. http://www.austrade.gov.au/GENERALINFO/Page47804.asp
Agency for Healthcare    U.S. Department of Health and Human Services provides information to external sources about
Research and Quality     linking to the site. http://www.ahrq.gov/news/weblink.htm
FEEDBACK
Environmental            U.S. Environmental Protection Agency site directs the user to four different places to send a
Protection Agency        question, a comment, a request for technical assistance, or a question from outside the U.S.
                         http://www.epa.gov/epahome/comments.htm
Forest Service           U.S. Department of Agriculture site where users can direct comments to Forest Service
                         programs, opportunities, or management areas. http://www.fs.fed.us/links/feedback.shtml
Federal Trade            U.S. government site that directs users to send comments or complaints to the office that
Commission               handles antitrust or competition matters, consumer protection issues, and technical web site
                         problems. http://www.ftc.gov/ftc/talk_to_us.htm
New Zealand Trade        New Zealand government site that directs users to different pages based on different inquiries,
Development Board        such as organizing a visit, contacting an overseas office, asking an import question, asking
                         student questions, and commenting on the web site.
                         http://www.tradenz.govt.nz/contact/index.html
CUSTOMER SERVICE
National Institutes of   U.S. Department of Health and Human Services site explains the hours that e-mail messages
Health                   are answered by specialists and how they try to respond within 48 hours. Routes users to other
                         areas of the site for medical and funding questions. http://www.nih.gov/about/abomail.htm
National Weather         U.S. Department of Commerce site offers three options for sending in comments about the web
Service                  site—via an on-line form, by mail, and via e-mail to web master—and mentions that a reply
                         may take two or more work weeks. http://www.nws.noaa.gov/feedback.shtml


                                                          44

  U.S. Department of Commerce                                                               Final Report IPE-13213

  Office of Inspector General                                                                          March 2001



   Organization                                                  Description
Environmental           U.S. Environmental Protection Agency site states that EPA strives to respond to customer
Protection Agency       comments about the web site, or refers the comment to appropriate program, within 10 business
                        days. http://www.epa.gov/epahome/comment2.htm
The White House         U.S. government site states that all messages pertaining to the technical operation and usability
                        of the White House web site are read and that e-mails are not answered or forwarded.
                        http://www.whitehouse.gov/WH/Mail/html/Mail_Developers.html
California Chamber of   Chamber of Commerce site with an interactive “Answer Center.” Customers can browse
Commerce                frequently asked questions by topic, or e-mail a question on-line, or search a solution database
                        of previous questions using key words. http://www.calchamberstore.com/calchamber/




                                                         45

U.S. Department of Commerce                                                   Final Report IPE-13213
Office of Inspector General                                                              March 2001

                                                                                   APPENDIX B

                               Glossary of Terms and Acronyms

Address: The location of an Internet resource. An e-mail address may take the form of
msmith@somecompany.com. A web address looks something like “http://www.doc.gov.”

Anchor: Either the starting point or destination of a hyperlink. Clicking an anchor takes you to
another part of a page or to a page on another site on the web.

Banner: Narrow graphics (i.e., logos or signboards) used to mark a place where the reader can
click to get more information, or as letterhead at the top of each page to display the
organization’s logo.

BISNIS - Business Information Service for the Newly Independent States: A MAC program
that serves as a resource center for U.S. companies exploring business opportunities in the newly
independent states of the former Soviet Union. Provides U.S. companies with market reports and
tips on developments, export, and investment opportunities, and strategies for doing business in
the region. The URL for this site is: http://www.bisnis.doc.gov

Browser: A software application, like Netscape Navigator or Microsoft Internet Explorer, that
knows how to go to a web server on the Internet and request and pull a page through the network
and into your machine. Browsers also know how to interpret the set of HTML tags within the
page in order to display the page on your screen as the page’s creator intended it to be viewed.

CEEBIC - Central and Eastern Europe Business Information Center: A MAC program that
offers a variety of services to U.S. businesses to facilitate trade and investment between the U.S.
and Central and Eastern Europe. The URL for this site is:
http://www.mac.doc.gov/eebic/ceebic.html

Cookie: A message given to a web browser by a web server. The browser stores the message in
a text file on the user’s computer called “cookie.txt.” The message can then be used to track the
activities of users over time and across different web sites, thus making it possible to build a
profile of a user’s preferences, tastes, web reading habits, and other characteristics by combining
information gathered from multiple visits to different web sites.

Country Commercial Guides: An annual document prepared by US&FCS overseas staff that
contains information about the business and economic situation of foreign countries as well as
the political climate as it affects U.S. business. It also lists best prospects for export
opportunities for U.S. companies.


                                                46

U.S. Department of Commerce                                                   Final Report IPE-13213
Office of Inspector General                                                              March 2001

Domain: The Internet is divided into smaller sets known as domains, including .com (business),
.gov (government), .edu (educational) and others.

Domain Name: Allows you to reference Internet sites without knowing the true numerical
address.

E-Expo USA: A US&FCS program that offers U.S. companies a low cost platform to market
their products and services internationally via the Internet. The site offers companies a virtual
show booth that is on-line 24 hours a day, seven days a week, 365 days a year.

Electronic Signature: A method of signing an electronic message that identifies and
authenticates a particular person as the source of the message and indicates their approval of its
contents. A digital signature may be digital and encoded, using cryptographic techniques.

E-mail: Electronic mail is an application that allows messages to be transmitted via data
communications to electronic mailboxes.

EPA - U.S. Environmental Protection Agency.

Home Page: The first page of a web site. This is also the web site that automatically loads each
time you launch your browser.

HTML - HyperText Markup Language: The coding system used to create world wide web
pages.

HTTP - HyperText Transfer Protocol: The main protocol used on the world wide web that
enables linking to other web sites.

Hyperlink: A connection between two anchors. Clicking on one anchor will take you to the
linked anchor. The anchors can be within the same document/page or two totally different
documents.

Hypertext: A document that contains links to other documents, commonly seen in web pages
and help files. In most browsers, hypertext is shown underlined.

Internet: The loosely connected worldwide collection of computer systems that uses a common
set of communications standards to send and receive electronic information.

Link: An active connection to another web page, location in a web page, file, or other Internet
resource. Selecting the link takes you to the new location or resource.


                                                 47

U.S. Department of Commerce                                                 Final Report IPE-13213
Office of Inspector General                                                            March 2001

MAC - Market Access and Compliance: An ITA unit responsible for helping U.S. businesses
overcome barriers to trade and investment. MAC provides information to enable businesses to
benefit fully from market access openings from the over 200 trade agreements. The URL for its
site is: http://www.ita.doc.gov/MAC.

Metadata: Information about data or, more specifically, the descriptive information provided in
a tag used in the header of a page to provide information about the page.

Multimedia: A combination of media types on a single document, including text, graphics,
animation, audio and video.

NAFTA - North American Free Trade Agreement.

OIG - Office of Inspector General.

OMB - Office of Management and Budget.

Page: An HTML document, or web site.

Platform: The type of computer or operating system on which a software application runs.
Some common platforms are PC, Macintosh, Unix, and Next.

Portal: An entry point or starting site for the World-Wide Web, combining a mixture of content
and services and attempting to provide a "home base" for its audience with an organization that is
intended to guide users easily through the web.

Search Engine: A tool for searching information on the Internet by topic. Popular engines
include InfoSeek, Inktomi, and Web Crawler.

Server: One half of the client-server protocol, runs on a networked computer and responds to
requests submitted by the client. A world wide web browser is a client of a world wide web
server.

Site: A single or collection of related web pages.

TIC - Trade Information Center: A resource for information on federal government export
assistance programs that is operated by ITA for the Trade Promotion Coordinating Committee.
The URL for this site is: http://www.ita.doc.gov/td/TIC

TOP - Trade Opportunity Program: A program in US&FCS which provides trade leads that


                                                48

U.S. Department of Commerce                                                  Final Report IPE-13213
Office of Inspector General                                                             March 2001

can be retrieved on-line by U.S. exporters by industry, country, and lead type.

TD - Trade Development: An ITA unit responsible for promoting U.S. exports by providing
industry expertise, from basic manufacturing to high technology and service exports. TD
participates in trade negotiations, manages trade missions to overseas markets, and advocates for
U.S. bidders for international contracts. The URL for its site is: http://www.ita.doc.gov/TD

TPCC - Trade Promotion Coordinating Committee: Composed of the 19 federal agencies
who are responsible for managing the U.S. Government's export promotion programs and
activities. The list of member agencies can be found in Appendix C.

URL - Uniform Resource Locator: Short strings, commonly known as web site addresses, that
point to resources on Internet (e.g., http://www.doc.gov points to the Commerce home page).

US&FCS - United States and Foreign Commercial Service: An ITA unit responsible for
providing trade assistance, including trade counseling, trade contact services, product and service
promotion, market research, and trade leads to U.S. firms. US&FCS has both domestic and
overseas offices. The URL for its site is: http://www.usatrade.gov/.

USEAC - United States Export Assistance Center: A domestic office of US&FCS.

Web master: Someone who keeps a web site running and available to its readers.

Web Masters Group: A departmental group that consists of members from each Commerce
agency plus the Commerce Department Web Master (from the Secretary’s Office of Public
Affairs) and a representative of the CIO. The Group serves as an advisory body to the Commerce
CIO and Commerce CIO Council and provides input on matters such as the Department’s
Internet and Intranet presence, web site and web server security issues, departmental Internet
policy issues and standards, and other matters as directed by the Commerce CIO or CIO Council.
The URL for the Group and for departmental standards can be found at
http://www.doc.gov/webresources/.

Web site and web page: A web site is a collection of one or more web pages. A web page is a
single file that can be displayed on the web. Web pages can be a few lines of text, or several
book pages long.

World wide web or web: The subset of the Internet capable of providing the public with user-
friendly graphics-based multi-media access to information on the Internet. It is the most popular
means for sorting and linking Internet-based information in all multi-media formats. Navigation
is accomplished through a set of linked documents that may reside on the same computer or on
computers located almost anywhere else in the world.

                                                49

U.S. Department of Commerce                                                           Final Report IPE-13213
Office of Inspector General                                                                      March 2001

                                                                                             APPENDIX C

                             Trade Promotion Coordinating Committee

                                       Member Agencies


Agency for International Development
Council of Economic Advisors
Department of Agriculture
Department of Commerce
Department of Defense
Department of Energy
Department of the Interior
Department of Labor
Department of State32
Department of Transportation
Department of the Treasury
Environmental Protection Agency
Export-Import Bank of the United States
National Economic Council
Office of Management and Budget
Overseas Private Investment Corporation
Small Business Administration
United States Trade and Development Agency
United States Trade Representative




        32
          There were 20 TPCC agencies until 1999, when the Department of State absorbed the United States
Information Agency.

                                                     50
U.S. Department of Commerce                     Final Report IPE-13213
Office of Inspector General                                March 2001

                                                      APPENDIX D
                              Agency Response




                                    51

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              52

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              53

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              54

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              55

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              56

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              57

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              58

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              59

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              60

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              61

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              62

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              63

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              64

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              65

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              66

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              67

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              68

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              69

U.S. Department of Commerce         Final Report IPE-13213

Office of Inspector General                    March 2001





                              70

